1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1101
Sok Kong, Trustee for Next-of-Kin of Map Kong,
Decedent
Appellee
v.
City of Burnsville, et al.
Appellants

__________________________________________
Appeal from U.S. District Court
for the District of Minnesota
(0:16-cv-03634-SRN)

__________________________________________
ORDER
The petition for rehearing en banc is denied. The
petition for panel rehearing is also denied.
Chief Judge Smith and Judges Shepherd, Kelly,
Erickson, and Grasz would grant the petition for rehearing en banc.
GRASZ, Circuit Judge, with whom ERICKSON,
Circuit Judge, joins, dissenting from the denial of rehearing en banc.
I respectfully dissent from the court’s refusal to rehear this case en banc.In my view, this case deserves
reconsideration for three reasons.
First and foremost, we must ensure the consistent
application of settled precedent, particularly with respect to how we review denials of qualified immunity

2a
at the summary judgment stage. In such circumstances, we must accept the “‘district court’s findings
of fact to the extent they are not blatantly contradicted by the record,’ and if the district court fails to
make a finding necessary for our legal review, ‘we determine what facts the district court, in nonmoving
party, likely assumed.’” Walton v. Dawson, 752 F.3d
1109, 1116 (8th Cir. 2014) (first quoting Scott v. Harris, 550 U.S. 372, 380 (2007); and then quoting Johnson v. Jones, 515 U.S. 304, 320 (1995)).
I do not believe this standard was properly applied
here. The panel distinguished this case from Ludwig
v. Anderson, 54 F.3d 465 (8th Cir. 1995) by claiming
Mr. Kong “posed a threat to citizens.” Kong v. City of
Burnsville, No. 19-1101, slip op. at 9 (8th Cir. 2020).
From where was this fact derived? Not from the district court, which found “a genuine dispute of material
fact . . . as to whether Mr. Kong posed a significant
and immediate threat of serious injury or death to the
surrounding public.” Kong v. City of Burnsville, No.
16-cv-03634, 2018 WL 6591229, at *14 (D. Minn. Dec.
14, 2018) (cleaned up). Did the record blatantly contradict the district court’s finding? The opinion does
not say, though the evidence of Mr. Kong’s frightened
flight “away from pedestrians and the officers” cuts
against such a conclusion. Id. And as Judge Kelly
pointed out in her dissent, a jury could presumably reject as unreasonable the officers’ belief that Mr. Kong
posed such a threat. Kong, slip op. at 19 (Kelly, J., dissenting); see also Rahn v. Hawkins, 464 F.3d 813,
817–18 (8th Cir. 2006) (explaining the jury’s duty to
determine an officer’s reasonableness in a use-ofdeadly-force case), overruled on other grounds by Rivera v. Illinois, 556 U.S. 148 (2009); Wallace v. City of
Alexander, 843 F.3d 763, 769 (8th Cir. 2016) (“Given

3a
the record before the district court, a fact finder could
reasonably conclude that Wallace no longer posed a
significant threat. . . .”) (emphasis added). The court
should reexamine this case to prevent the steady erosion of our summary judgment standard.
Second, we ought to rehear this case to further consider what constitutes an “immediate threat.” Has the
panel opinion broadened “immediate threat” to include all situations in which someone flees with a
knife when occupied vehicles are in the general vicinity? Answering this question seems important, given
the similar facts in Ludwig, in which we denied qualified immunity to officers who shot a man as he fled
with a knife. 54 F.3d at 473–74. It is hard to justify
expanding our definition of “immediate threat” in a
situation where our analysis directly turns on how we
have resolved prior, similar cases (e.g., when determining whether a right has been “clearly established”).
Finally, the en banc court should address the first
prong of the qualified immunity analysis. That is, we
should determine whether the officers violated the
Fourth Amendment when they shot the fleeing Mr.
Kong fifteen times in the back and side when no pedestrians were nearby. The panel did not address the
constitutional issue, stating only that, “[e]ven if the
facts showed that the officers had violated Kong’s
Fourth Amendment right, the law . . . did not clearly
establish the right.” Kong, slip op. at 7. I do not question the panel’s authority to skip this analytical step.
Pearson v. Callahan, 555 U.S. 223, 236 (2009). But I
worry about the impact bypassing this inquiry has on
the public’s perception of the justice system’s efficacy
and law enforcement’s accountability, both of which
are critical for a society governed by the rule of law.

4a
In my view, we should do what we permissibly can to
strengthen confidence in the rule of law and the judicial system.
July 30, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

5a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

__________________________________________
No. 19-1101

__________________________________________
Sok Kong, Trustee for Next-of-Kin of Map Kong,
Decedent
Plaintiff - Appellee
v.
City of Burnsville; Maksim Yakovlev, in his individual and official capacity; John Mott, in his individual
and official capacity; Taylor Jacobs, in his individual
and official capacity
Defendants – Appellants

________________
Appeal from the United States District Court
for the District of Minnesota

________________
Submitted: February 11, 2020
Filed: May 29, 2020

________________
Before
LOKEN,
Circuit Judges.

BENTON,

and

KELLY,

________________
BENTON, Circuit Judge.
Map Kong was fatally shot by police in Burnsville,
Minnesota. His next-of-kin’s Trustee, Sok Kong, sued
the City of Burnsville and the officers who shot him—

6a
Maksim Yakovlev, John Mott, and Taylor Jacobs—under 42 U.S.C. § 1983 and state law. The district court
denied the defendants’ motion for summary judgment
invoking qualified immunity and official immunity.
They appeal. Having jurisdiction under 28 U.S.C. §
1291, this court reverses and remands.
I.
This court states “the facts that the district court
specifically found were adequately supported, along
with those facts that the district court likely assumed.” Brown v. Fortner, 518 F.3d 552, 557-58 (8th
Cir. 2008). “When there are questions of fact the district court did not resolve, we determine the facts that
it likely assumed by viewing the record favorably to
the plaintiff as in any other summary judgment motion.” Id. at 558. See also Tolan v. Cotton, 572 U.S.
650, 657 (2014); Walton v. Dawson, 752 F.3d 1109,
1116 (8th Cir. 2014). However, this court does not
adopt the plaintiff’s version if it is “blatantly contradicted by the record.” See Scott v. Harris, 550 U.S. 372,
380 (2007). Almost all the facts here come from the
body cameras of four officers. Kong v. City of Burnsville, 2018 WL 6591229, at *1 (D. Minn. Dec. 14,
2018).
At 6:16 am on March 17, 2016, dispatch alerted officers Taylor Jacobs and John Mott about “suspicious
activity” in a McDonald’s parking lot. Id. at *2. The
dispatcher said a man had been parked there for over
half an hour, “jumping up and down inside his car,”
“waving a knife back and forth.” Id. The dispatcher
added it was unknown if he was alone in the car. Id.
The sun had not risen when officers Jacobs and
Mott arrived around 6:22 am at the McDonald’s. Id. at

7a
*3. It faced the frontage road and the four-lane highway; weekday traffic moved steadily, interrupted by
stop signs on the frontage road and stoplights on the
highway. Id.
Kong sat in the driver’s seat, windows rolled up,
rocking back and forth, slashing a large knife through
the air in front of him. Id. The officers pointed their
firearms and flashlights at him, repeatedly shouting
“drop the knife” and “let me see your hands.” See id.
at *4. Officer Jacobs told Kong he was under arrest.
Id. Kong did not comply or cease his “abnormal” motions. Id. at *3–4. Both officers later stated that, at the
scene, they thought Kong was high on methamphetamines. Id. at *3.
Officer Lynrae Tonne arrived, parking in the space
facing Kong’s car to block him in from the front. See
id. at *4. Kong continued to “occasionally burst into
frantic fits of gyrations and knife waving.” Id. Awaiting backup, the officers discussed what to do next. Id.
Officer Jacobs called for a medic to be staged nearby.
Id. He also asked if anyone was “laying down or hurt
or injured in the back” of Kong’s car. See id. The officers could not see through the fogged back windows.
See id. at *5. Officer Jacobs said, “I’m just afraid he’s
got a gun in the car.” See id. at *4.
McDonald’s customers continued to drive through,
immediately behind Kong’s car. The officers’ body
cameras recorded 13 vehicles moving through the
parking lot during the encounter with Kong. Id. at *3.
Officer Jacobs moved his vehicle behind Kong’s car to
block him in (also slowing the drive-through traffic).
See id. at *4. Officer Mott radioed that any additional
units should completely block off traffic entering the
parking lot. Id. at *5.

8a
Sergeant Maksim Yakovlev arrived, parking his
vehicle at the frontage entrance, lights flashing, but
not completely blocking it. Id. Officer Jacobs told him
Kong was “contained,” but the officers should consider
breaking a window and tasing him in case “he hops
out of that car.” Id. Sergeant Yakovlev suggested they
“figure out if he’s by himself there first.” Id. Officer
Jacobs then broke Kong’s back passenger window, instructing the others, “Look for any guns.” See id.
Officer Jacobs next broke Kong’s front passenger
window. Id. at *6. The officers repeatedly yelled,
“Drop the knife.” Id. Kong did not respond. Officer Jacobs yelled, “Taser, taser,” firing his taser at Kong. Id.
Kong squealed—high pitched, distressed. Id. He did
not drop his knife or stop bouncing up and down in his
seat. Id. Kong then swung his knife closer to the broken passenger-side window where officer Jacobs
stood. Id. Jacobs tased him again. Id. Kong fell back
in his seat. Id.
Right after the second tasing, Kong stumbled out
the driver-side door, falling to the pavement. Id. He
quickly stood up, knife in hand, and began running
across the parking lot toward the frontage road and
highway, away from the officers and McDonald’s. Id.
Within seconds, officers Mott, Jacobs, and Yakovlev
shot him from the back and side, firing at least 23 bullets. Id. Fifteen bullets hit Kong, killing him instantly
around 6:29 am. Id.
As the officers fired their guns, a customer’s vehicle exited the parking lot about 30 feet away. Id. at *7.
Kong ran in the general direction of the vehicle, although not at it in particular. Id. Kong ran toward the
frontage road and highway. Id. During the shooting, a
few cars passed by along the frontage road, 100 feet

9a
away. See id. Steady traffic continued on the highway
beyond. Id.
The Trustee sued the City of Burnsville and officers Yakovlev, Mott, and Jacobs. The Trustee asserts
claims under (1) 42 U.S.C. § 1983 for excessive force
and (2) Minnesota law for negligent failure to follow
Burnsville police department policies. The district
court denied the defendants’ motion for summary
judgment. They appeal.
II.
The officers assert qualified immunity against the
Section 1983 claim. They are entitled to qualified immunity unless (1) the facts show a violation of a constitutional right, and (2) the right was clearly established at the time of the misconduct. See Pearson v.
Callahan, 555 U.S. 223, 232 (2009). This court reviews
de novo the denial of qualified immunity. Raines v.
Counseling Assocs., Inc., 883 F.3d 1071, 1074 (8th Cir.
2018).
A.
The Trustee argues that this court lacks jurisdiction over the qualified immunity issue. A denial of
summary judgment on qualified immunity is appealable “to the extent that it turns on an issue of law.”
Mitchell v. Forsyth, 472 U.S. 511, 530 (1985). See also
Felder v. King, 599 F.3d 846, 848 (8th Cir. 2010). Although this court cannot find facts, it may determine
whether the undisputed facts support the district
court’s legal conclusions. Brown, 518 F.3d at 557;
Raines, 883 F.3d at 1074. This court views disputed
facts most favorably to the plaintiff, including all reasonable inferences. Wallace v. City of Alexander, 843
F.3d 763, 767-68 (8th Cir. 2016).

10a
The Trustee contends that the qualified immunity
issue requires this court to resolve disputed facts.
Courts of appeals may review the legal issues whether
conduct violated the Fourth Amendment or clearly established law. Plumhoff v. Rickard, 572 U.S. 765, 773
(2014). While this court cannot review whether a factual dispute is genuine, it may review the purely legal
question whether a factual dispute is material.
Thompson v. Murray, 800 F.3d 979, 983 (8th Cir.
2015). A nonmaterial difference in facts does not prevent appellate review. See Malone v. Hinman, 847
F.3d 949, 953-54 (8th Cir. 2017). Here, this court can
decide the legal issues without resolving disputed
facts, using the facts the district court specifically
found adequately supported, and those it likely assumed by viewing the record favorably to the plaintiff,
unless blatantly contradicted by the record. See
Brown, 518 F.3d at 557-58; Scott, 550 U.S. at 380. This
court has jurisdiction to review the qualified immunity issue.

B.
The Trustee argues that the defendants violated
Kong’s Fourth Amendment right to be free from unreasonable seizure when they shot him. See Tennessee
v. Garner, 471 U.S. 1, 7 (1985) (holding “apprehension
by the use of deadly force is a seizure subject to the
reasonableness requirement of the Fourth Amendment”). “[T]he question whether an officer has used
excessive force ‘requires careful attention to the facts
and circumstances of each particular case, including
the severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest
or attempting to evade arrest by flight.’” Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018), quoting Graham

11a
v. Connor, 490 U.S. 386, 396 (1989). Reasonableness
“must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Id. “[T]he calculus of reasonableness
must embody allowance for the fact that police officers
are often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.” Id. Qualified immunity
“protects all but the plainly incompetent or those who
knowingly violate the law.” Id.
“[W]here the officer has probable cause to believe
that the suspect poses a threat of serious physical
harm, either to the officer or to others, it is not constitutionally unreasonable to prevent escape by using
deadly force.” Id., quoting Garner, 471 U.S. at 11. A
fleeing suspect must thus pose “an immediate and significant threat of serious injury or death to the officer
or to bystanders.” Wallace, 843 F.3d at 769.
Even if the facts showed that the officers had violated Kong’s Fourth Amendment right, the law at the
time of the shooting—March 17, 2016—did not clearly
establish the right. For a right to be clearly established, “existing precedent must have placed the statutory or constitutional question beyond debate.”
Kisela, 138 S. Ct. at 1152; Ashcroft v. al-Kidd, 563
U.S. 731, 741 (2011). The law must provide “fair warning” to officials that conduct is unconstitutional. Tolan, 472 U.S. at 656. “Specificity is especially important in the Fourth Amendment context, where the
[Supreme] Court has recognized that it is sometimes
difficult for an officer to determine how the relevant
legal doctrine, here excessive force, will apply to the
factual situation the officer confronts.” Kisela, 138 S.
Ct. at 1152 (alteration added), quoting Mullenix v.

12a
Luna, 136 S. Ct. 305, 308 (2015). “Use of excessive
force is an area of the law in which the result depends
very much on the facts of each case, and thus police
officers are entitled to qualified immunity unless existing precedent squarely governs the specific facts at
issue.” Id. at 1153. “An officer cannot be said to have
violated a clearly established right unless the right’s
contours were sufficiently definite that any reasonable official in the defendant’s shoes would have understood that he was violating it.” Id., quoting Plumhoff,
572 U.S. at 778-79.
Two years after Kong’s 2016 shooting, the Supreme Court held that its case law did not clearly establish that officers acted unreasonably by shooting a
woman who stood calmly with a kitchen knife by her
side six feet from a bystander. See Kisela, 138 S. Ct.
at 1152. Although the Burnsville defendants could not
rely on Kisela for guidance, the Court’s analysis of its
own pre-2016 precedent is instructive. Like Kong, the
woman shot in Kisela was not suspected of any felony,
and police responded to a report she was “acting erratically” with a knife. See id. at 1151, 1153. During
the encounter, she did not raise the knife toward the
police or others. See id. Like Kong, she did not
acknowledge the officers’ presence or obey their commands to drop the knife. See id. Holding that Kisela
was “far from an obvious case in which any competent
officer would have known that shooting” the woman
would violate her rights, the Court relied only on cases
decided before March 2016, when Kong was shot. See
id. at 1152-53.
The Court also held that case law of the relevant
circuit did not clearly establish the right. See id. at
1153-54 (analyzing the Ninth Circuit opinion below).
Denying qualified immunity, the Ninth Circuit had

13a
relied on a case where a sniper positioned safely on a
hilltop shot a man in the back as he retreated into a
cabin. Id. at 1154, analyzing Harris v. Roderick, 126
F.3d 1189, 1202-03 (9th Cir. 1997) (holding sniper violated clearly established law by shooting unarmed
man who made no aggressive move at the time of the
shooting). The Court held that “a reasonable police officer could miss the connection between the situation
confronting the sniper” in Harris and the situation in
Kisela. Id.
Similarly, this court’s case law at the time of
Kong’s shooting did not place the question of his right
beyond debate. The Trustee argues the officers should
have known that shooting Kong was an unreasonable
seizure under the Ludwig case. See Ludwig v. Anderson, 54 F.3d 465, 473 (8th Cir. 1995) (denying qualified immunity to officers who fatally shot Ludwig as
he fled with a knife). Ludwig may have been running
away from bystanders when shot, with the nearest bystander 150 feet away. Id. at 473. This court also assumed Ludwig did not physically threaten a police officer. Id. at 473-74. Shot at a distance when posing no
threat to officers or citizens, Ludwig was like the unarmed man shot in Harris, which the Supreme Court
rejected as distinct from the woman in Kisela standing
calmly with a knife near a bystander. See Kisela, 138
S. Ct. at 1154.
In contrast to Ludwig, Kong ran toward bystanders, including a woman driving only 30 feet away.
Kong, 2018 WL 6591229, at *7. Other cars were
parked in the McDonald’s lot, with at least one pedestrian visible among them on the body-camera footage.
The steady flow of vehicles through the parking lot
meant that citizens might quickly approach or step
out of their vehicles. And, a few cars passed by along

14a
on the frontage road, only 100 feet away, with steady
traffic on the highway beyond. See id. While pointing
their handguns at Kong’s car, the officers continually
warned each other about “crossfire” hitting an officer
or citizen, in or out of a vehicle, by firing at the wrong
angle. If the officers waited, a car might block their
line of fire or bystanders get too close for them to fire.
In fact, a bullet that missed Kong lodged in the
bumper of a vehicle pulling out of the parking lot 30
feet away. Id. When Kong began running through the
occupied parking lot, toward the frontage road and
highway, the officers “were forced to make a split-second judgment in circumstances that were tense, uncertain, and rapidly evolving.” Id. at *18. Although
Kong may not have threatened an officer with his
knife, he posed a threat to citizens. This situation differs from Ludwig, where this court did not mention
nearby traffic or “citizens who might be in the area”
and endangered by crossfire. See Mullenix, 136 S. Ct.
at 309-10 (emphasis in original); Ludwig, 54 F.3d at
473-74. A reasonable officer could miss the connection
between the situation confronting officers in Ludwig
in the woods and the situation with Kong in the
McDonald’s parking lot.
Cases decided by this court after Ludwig make
clear that, at the time of Kong’s shooting, officers
could use deadly force to stop a person armed with a
bladed weapon if they reasonably believed the person
could kill or seriously injure others. See Hayek v. City
of St. Paul, 488 F.3d 1049, 1055 (8th Cir. 2007) (samurai sword); Hassan v. City of Minneapolis, 489 F.3d
914, 919 (8th Cir. 2007) (machete); Estate of Morgan
v. Cook, 686 F.3d 494, 498 (8th Cir. 2012) (knife).
Though Kong appeared high on meth, the cases establish that mental illness or intoxication does not reduce

15a
the immediate and significant threat a suspect poses.
See, e.g., Hassan, 489 F.3d at 919 (mental illness); Estate of Morgan, 686 F.3d at 498 (intoxication). True,
the Burnsville officers’ training and department policy advised that “taking no action or passively monitoring the situation may be the most reasonable response to a mental health crisis.” However, acting contrary to training “does not itself negate qualified immunity . . . so long as a reasonable officer could have
believed that his conduct was justified.” City of San
Francisco v. Sheehan, 135 S. Ct. 1765, 1777 (2015).
See generally Davis v. Scherer, 468 U.S. 183, 194
(1984) (“Officials sued for constitutional violations do
not lose their qualified immunity merely because their
conduct violates some statutory or administrative provision.”); Cole v. Bone, 993 F.2d 1328, 1334 (8th Cir.
1993) (same, for police department policy). At any
rate, the Burnsville policy says, “Nothing in this policy shall be construed to limit an officer’s authority to
use reasonable force when interacting with a person
in a crisis.”
Even if the officers caused Kong to leave his car by
confronting him, they would reasonably believe the
law allowed them to shoot him if he posed an immediate and significant threat. Even if officers “created the
need to use” deadly force by trying to disarm a mentally ill person, the reasonableness of force depends on
the threat the person poses during the shooting.
Schulz v. Long, 44 F.3d 643, 649 (8th Cir. 1995). In
Schulz, a mentally ill man isolated himself in his parents’ basement. Id. at 645. Although he initially presented no threat and had committed no crime, officers
removed his hatchet and tried to subdue him. Id. at
646. The suspect attacked with an ax, forcing an officer to shoot him. Id. This court upheld exclusion of

16a
evidence that the officers “created the need to use
force.” Id. at 649.
Likewise, in Hayek, officers acted reasonably although their acts led a mentally ill man to attack them
with a samurai sword. Hayek, 488 F.3d at 1054-55
(upholding qualified immunity for fatal shooting).
Though Hayek had committed no crime, officers decided to remove him from his home because his mentally unstable behavior showed he might harm his
mother, when she returned to the home. Id. at 1055.
When he resisted being handcuffed, they chased him
back into the home with a police dog. Id. at 1053.
Hayek attacked an officer with a samurai sword, forcing the other officers to shoot him in response to his
threatening and violent behavior. Id. at 1053, 1055.
In Hassan, officers tried to disarm a man walking
down the middle of the street carrying a machete and
a tire iron. Hassan, 489 F.3d at 917. He ignored repeated commands to drop his weapons. Id. Seeing pedestrians in the direction he was headed, an officer
tased him twice. Id. Running into the parking lot of a
strip mall, the man raised his machete toward an officer (although he obeyed commands to stop). Id. He
moved toward officers despite being tased. Id. at 918.
He continued to approach officers, making slashing
motions with his machete and hitting a police car with
it. Id. Officers shot him fatally. Id.
Based on Schulz, Hayek, and Hassan, a reasonable
officer would have believed the law permitted shooting Kong. Like the officers in Schulz and Hayek, the
Burnsville officers tried to disarm Kong to prevent
him from causing harm, even if he initially posed no
immediate threat to others. See Schulz, 44 F.3d at
646; Hayek, 488 F.3d at 1055. When Kong left his car,

17a
the threat he posed justified lethal force, even if officers caused him to leave his car. See Hayek, 488 F.3d
at 1055. Like the man in Hassan, Kong’s unpredictable behavior with his weapon made him dangerous
even if he had not yet harmed anyone. See Hassan,
489 F.3d at 919. Cf. Swearingen v. Judd, 930 F.3d 983,
988 (8th Cir. 2019) (holding that the law as of 2014
did not clearly establish a right when knife-wielding
suspect posed threat of serious injury or death, even
though he had not committed a violent crime against
a person). Just as in Hassan, repeated commands and
tasing did not cause Kong to drop his knife. See Hassan, 489 F.3d at 919. The encounter occurred in a
McDonald’s parking lot with citizens in the vicinity,
like the strip mall parking lot in Hassan. See id. While
Hassan involved pedestrians, the McDonald’s parking
lot had at least one pedestrian and several citizens in
cars. See id. at 917.
The Trustee emphasizes that Kong, like Ludwig,
may not have committed a violent felony. See Ludwig,
54 F.3d at 473-74; Kisela, 138 S. Ct. at 1152, quoting
Graham, 490 U.S. at 396 (one factor for excessive force
is “the severity of the crime at issue”). The district
court found a material dispute of fact whether Kong
committed a violent felony by shaking the knife in the
car and moving the blade closer to officer Jacobs.
Kong, 2018 WL 6591229, at *12. Viewing the facts
most favorably to the Trustee, Kong did not commit a
violent felony. Id.
However, 17 years after Ludwig, in Estate of Morgan, this court held that a knife-wielding man posed
an immediate and significant threat even though he
did not commit a violent felony. See Estate of Morgan,
686 F.3d at 497. Officers responded to a domestic dis-

18a
turbance at Morgan’s house. Id. at 495. Morgan appeared intoxicated. Id. He stumbled on the porch, falling into a recliner, trying to conceal a kitchen knife by
his side. Id. at 495-96. An officer pointed a gun at him
from six to twelve feet away, ordering him repeatedly
to drop the knife. Id. at 496. Morgan stood up, holding
the knife pointed downward at his side. Id. He then
raised his right leg as if to take a step in the officer’s
direction. Id. The officer shot him fatally. Id. This
court held the officer acted reasonably because he had
probable cause to believe Morgan posed a threat of imminent, substantial bodily injury. Id. at 497.
Like Morgan, Kong did not attack an officer with
his knife before being shot. See Kong, 2018 WL
6591229, at *6 (assuming facts most favorably to
Kong). Neither Morgan nor Kong threatened officers
verbally. See Estate of Morgan, 686 F.3d at 495-96;
Kong, 2018 WL 6591229, at *5–6. Both men appeared
under the influence of a substance. See Estate of Morgan, 686 F.3d at 495; Kong, 2018 WL 6591229, at *3.
Based on Estate of Morgan, a reasonable officer would
have believed the law permitted shooting Kong even
without a violent felony.
Existing precedent of the Supreme Court and this
circuit did not provide fair warning to the Burnsville
officers that shooting Kong under these circumstances
was unreasonable. The district court erred in denying
the officers qualified immunity.
III.
The Trustee claims the defendant officers were
negligent under state law for not following Burnsville
police department policies, and that the City of Burnsville, as their employer, is vicariously liable for the officers’ negligence. “The basic elements of a negligence

19a
claim are: (1) existence of a duty of care; (2) breach of
that duty; (3) proximate causation; and (4) injury.”
Bjerke v. Johnson, 742 N.W.2d 660, 664 (Minn. 2007).
The officers assert the defense of official immunity,
and the City of Burnsville asserts vicarious immunity.
The parties agree that the defendant officers’ conduct
was discretionary. See Smith v. City of Brooklyn Park,
757 F.3d 765, 775 (8th Cir. 2014) (“Under Minnesota
law, the decision to use deadly force is a discretionary
decision.”); Maras v. City of Brainerd, 502 N.W.2d 69,
77 (Minn. Ct. App. 1993) (same). For discretionary
conduct, government officials are entitled to official
immunity unless “guilty of a willful or malicious
wrong.” Vasallo ex rel. Brown v. Majeski, 842 N.W.2d
456, 462 (Minn. 2014). See also Elwood v. Rice Cty.,
423 N.W.2d 671, 677 (Minn. 1988). An official shows
malice only by “intentionally committing an act that
the official has reason to believe is legally prohibited.”
Kelly v. City of Minneapolis, 598 N.W.2d 657, 663
(Minn. 1999). See also Wertish v. Krueger, 433 F.3d
1062, 1067 (8th Cir. 2006) (applying Minnesota law).
This determination “contemplates less of a subjective
inquiry into malice . . . and more of an objective inquiry into the legal reasonableness of an official’s actions.” State by Beaulieu v. City of Mounds View, 518
N.W.2d 567, 571 (Minn. 1994). See also Smith, 757
F.3d at 775.
This court reviews de novo the denial of official and
vicarious immunity on summary judgment. Gordon v.
Frank, 454 F.3d 858, 864, 866 (8th Cir. 2006).
A.
The Trustee argues that this court lacks jurisdiction over the defendants’ official immunity defense.
An appellate court may review a summary judgment

20a
of official immunity based on facts the district court
found adequately supported or likely assumed. See
Smith, 757 F.3d at 775. See also Vasallo, 842 N.W.2d
at 462, 465; Elwood, 423 N.W.2d at 679 (granting official immunity because there was no genuine issue of
fact). Here, the record, including the district court’s
factual findings and the officers’ body-camera recordings, allows this court to review the denial of summary judgment. Cf. Fedke v. City of Chaska, 685
N.W.2d 725, 728 (Minn. Ct. App. 2004) (relying on
video evidence to grant official immunity). This court
has jurisdiction over the official immunity issue.
B.
The Trustee argues that the officers committed a
willful or malicious wrong by willfully disregarding
the Burnsville police department’s policy on crisis intervention for persons “who may be experiencing a
mental health or emotional crisis.”
The policy says, “Nothing in this policy shall be
construed to limit an officer’s authority to use reasonable force when interacting with a person in crisis.”
The officers acted reasonably when they tried to disarm Kong in his car to prevent him from harming himself or others. See Reuter v. City of New Hope, 449
N.W.2d 745, 748, 750 (Minn. Ct. App. 1990) (granting
official immunity to officers who tried to forcibly remove woman from car and restrain her because her
erratic behavior convinced them she would harm herself or her children). A reasonable officer would have
believed deadly force was necessary to stop Kong from
endangering bystanders when he ran through the
parking lot with a large knife. See Hassan, 489 F.3d
at 920 (applying Minnesota law). Therefore, the officers did not violate the policy. See id. (“Because the

21a
facts establish the officers’ use of deadly force was reasonable, a reasonable fact finder could not conclude
the officers’ conduct was willful or malicious.”).
Even if the officers negligently disregarded the policy, malice requires a higher standard—intentional
wrongdoing. See Vasallo, 842 N.W.2d at 465 (“Malice
is not negligence. It is the intentional doing of a
wrongful act . . . the willful violation of a known
right.”); Kelly, 598 N.W.2d at 663 (holding that reckless acts did not show requisite intent for malice).
Here, the evidence shows that, even if the officers
acted negligently, they did not intentionally disregard
the policy—as shown by comparing their acts to the
policy.
The policy states that officers responding to a call
involving a person in a crisis should request available
backup and specialized resources if necessary. They
should secure the scene and clear the immediate area.
If circumstances reasonably permit, officers should
consider and employ alternatives to force. They
should use de-escalation techniques, such as taking no
action or passively monitoring the situation, as appropriate. They should turn off flashing lights or sirens if
feasible without compromising safety. Also, they
should attempt to determine if weapons are present.
Officers should take into account the person’s potential inability to understand commands or appreciate
the consequences of actions. They also should employ
tactics to preserve the safety of all participants.
Officer Jacobs requested specialized resources,
calling for a medic to stage nearby. See Kong, 2018 WL
6591229, at *4. The officers tried to secure the scene
by blocking Kong’s car and parking a patrol at the

22a
parking lot’s entrance (even if unsuccessful in stopping customers from driving through). See id. at *4–5.
They requested backup to secure the scene. Id. at *5.
Initially they employed alternatives to force, giving
verbal commands Kong ignored. Id. They passively
monitored Kong when they first arrived. See id. at *3.
The officers turned off their sirens, and most turned
off their flashing lights (with one vehicle’s lights flashing to (partly) block incoming traffic). See id. The officers attempted to determine if firearms were present
by breaking the fogged-up rear window. They took
into account Kong’s seeming inability to understand
commands by using the taser to disarm him. See id. at
*4, *6. Kong could have harmed himself or others with
the knife, and his behavior suggested he needed medical or psychiatric treatment. Trying to disarm him
was a tactic to preserve the safety of all participants.
Far from intentionally disregarding the policy, the
officers’ acts show they tried to follow it. Once Kong
started running through the parking lot with the
knife, the officers reasonably believed lethal force was
necessary. The policy allows officers to use reasonable
force. Because they did not willfully disobey the policy,
the officers are entitled to official immunity.
The City of Burnsville is thus entitled to vicarious
official immunity. “Vicarious official immunity is usually applied where officials’ performance would be hindered as a result of the officials second-guessing themselves when making decisions, in anticipation that
their government employer would also sustain liability as a result of their actions.” Schroeder v. St. Louis
Cty., 708 N.W.2d 497, 508 (Minn. 2006). Failing to
grant immunity to the City of Burnsville would create
a disincentive for the City to have policies on officers’
interactions with persons undergoing a mental health

23a
crisis. See id. (granting immunity to avoid creating a
disincentive for county to create policies on road-grading). See also Anderson v. Anoka Hennepin Indep. Sch.
Dist. 11., 678 N.W.2d 651, 664 (Minn. 2004) (“The
court applies vicarious official immunity when failure
to grant it would focus stifling attention on an official’s performance to the serious detriment of that performance.”); Hayek, 488 F.3d at 1057 (granting vicarious official immunity to city for officers’ discretionary
acts violating policy on emotionally disturbed persons).
The district court erred in denying the defendants
summary judgment for the Trustee’s state-law negligence claim.
*******
The judgment of the district court is reversed, and
the case remanded for further proceedings consistent
with this opinion.
KELLY, Circuit Judge, dissenting.
In my view, the district court correctly denied defendants’ motion for summary judgment after viewing
the evidence in the light most favorable to the Trustee
and deciding that a reasonable jury could find defendants violated Kong’s clearly established right to be
free from excessive force. I also believe the district
court correctly denied defendants summary judgment
on the Trustee’s state-law claims. Accordingly, I respectfully dissent.
I.
Officers are not entitled to qualified immunity if
“(1) they violated a federal statutory or constitutional

24a
right, and (2) the unlawfulness of their conduct was
clearly established at the time.” District of Columbia
v. Wesby, 138 S. Ct. 577, 589 (2018) (cleaned up). The
Trustee claims the officers violated Kong’s clearly established right to be free from excessive force when
they shot him as he fled his parked car. In assessing
this claim, we ask whether the officers’ actions were
“‘objectively reasonable’ in light of the facts and circumstances confronting them.” Graham v. Connor,
490 U.S. 386, 397 (1989). Three factors guide this inquiry: “[1] the severity of the crime at issue, [2]
whether the suspect poses an immediate threat to the
safety of the officer or others, and [3] whether the suspect is actively fleeing or resisting arrest.” 1 Wallace v.
City of Alexander, 843 F.3d 763, 768 (8th Cir. 2016)
(cleaned up); see Graham, 490 U.S. at 395. Critically,
the use of “deadly force against a fleeing suspect who
does not pose a significant and immediate threat of
serious injury or death to an officer or others is not
permitted.” Capps v. Olson, 780 F.3d 879, 886 (8th
Cir. 2015).
The district court determined that defendants are
not entitled to qualified immunity on the Trustee’s excessive-force claim. Viewing the facts in the light most
As to the third factor, this court has distinguished between a
suspect “fleeing arrest” and a suspect “engaging in a hostile and
intense physical struggle.” Wallace, 843 F.3d at 769 (cleaned up).
The mere act of fleeing arrest does not permit deadly force “unless the suspect poses an immediate and significant threat of serious injury or death” to the officer or others. Id. (cleaned up).
Defendants do not suggest Kong was engaged in a physical struggle when he was shot. Rather, the undisputed facts show he was
running away from the officers at the relevant time. As a result,
the key factor in this case is whether the officers reasonably believed Kong posed an immediate and significant threat of serious
injury or death when they shot him. See id.
1

25a
favorable to the Trustee, the court decided that a reasonable officer would not believe Kong had committed
a violent felony or posed a “significant and immediate
threat of serious injury or death” at the time he was
shot. Applying the factors above, the court concluded
that a jury could find the officers’ use of deadly force
was objectively unreasonable in violation of the
Fourth Amendment.
I agree with this analysis. Defendants contend
that the record conclusively shows the officers reasonably believed Kong had committed multiple violent
felonies before he exited his car, which supported
their decision to use deadly force. But when the officers arrived on the scene, Kong was not suspected of a
serious crime. Dispatch simply reported “suspicious
activity” in the McDonald’s parking lot. Kong was inside his parked car, rocking back and forth in the
driver’s seat and waving a knife in an unfocused manner. He did not respond to the officers and said nothing during the entire incident. Kong moved the knife
in Officer Jacobs’s direction after he was first hit with
a taser. But viewing this situation in the light most
favorable to the Trustee, a reasonable officer would
see this as an involuntary response to the intense electric current, rather than as evidence of an intent to
assault or terrorize, as defendants now claim. And
when Kong ultimately exited his car after being tased
twice, he ran away from the officers and bystanders
near the restaurant. A witness inside the restaurant
stated that Kong looked “scared” as he ran from his
car.
Given the officers’ familiarity with their department’s crisis-intervention policy, a reasonable officer
in their position would have recognized the totality of

26a
the circumstances showed Kong was likely experiencing a mental-health crisis rather than committing violent felonies. This is supported by their post-shooting
interviews with the Minnesota Bureau of Criminal
Apprehension, in which none of the four officers
claimed Kong had assaulted Jacobs or committed any
other violent felony before they decided to shoot. Viewing the record in the light most favorable to the Trustee, the “severity of the crime at issue” does not support the reasonableness of the officers’ deadly force.
See Graham, 490 U.S. at 395; Wallace, 843 F.3d at
768.
I also agree with the district court that a jury could
find the officers were unreasonable in their belief that
Kong posed “a significant and immediate threat of serious injury or death to an officer or others.” See
Capps, 780 F.3d at 886. To determine whether a fleeing suspect poses a significant and immediate threat,
an officer should consider “both the person’s present
and prior conduct.” Wallace, 843 F.3d at 768. Still
viewing the evidence in the light most favorable to the
Trustee, a reasonable officer would have recognized
that Kong was in the midst of a mental-health crisis
and did not pose an immediate threat of serious injury
or death. Kong was non-confrontational during the entire encounter. Indeed, he was running away from the
officers and other pedestrians when he was shot. And
while Kong carried a knife, a reasonable officer would
have known he did not pose a significant and immediate threat to anyone else in the vicinity because those
people were driving inside their cars. Kong was moving away from the officers and was unlikely to confront, much less harm, any other person.

27a
In sum, viewing the record in the light most favorable to the Trustee—as we must on summary judgment—a reasonable officer would not have believed
Kong posed a significant and immediate threat of serious physical harm to the officers or the public. Thus,
the use of deadly force was objectively unreasonable
under the circumstances and amounted to excessive
force. See Wallace, 843 F.3d at 768; Capps, 780 F.3d
at 885.
II.
The court concludes that even if the officers used
excessive force when they shot Kong, they are nevertheless entitled to qualified immunity because they
did not violate a clearly established right. Ante at 7. I
respectfully disagree.
Like the district court, I believe defendants violated Kong’s clearly established right to be free from
excessive force, as set out in Ludwig v. Anderson, 54
F.3d 465 (8th Cir. 1995). The officers in Ludwig responded to a call concerning an “emotionally disturbed person” camped behind a restaurant with civilians nearby. Id. at 467. Officers attempted to arrest
Ludwig for engaging in threatening behavior, prompting him to pull a knife and flee. Id. at 468. The officers
chased him to a nearby street and formed a semicircle
around him while pointing their guns and ordering
him to drop the knife. Id. Ludwig continued to
“switch[] the knife from hand to hand . . . as if [he]
might throw the knife.” Id. He “did not lunge at any
police officer,” although one officer stated otherwise at
his deposition. Id. at 469. Then, despite knowing that
mace might further perturb an “emotionally disturbed
person,” an officer maced Ludwig. Id. This caused him
to immediately turn and run “towards [a street] where

28a
[the officers] could see pedestrians.” Id. Soon after
Ludwig began to run, the officers shot and killed him.
Id. Although he was running away from the officers,
and the nearest visible bystanders were “across the
street approximately 150 feet” away, officers believed
deadly force was needed to “stop Mr. Ludwig from possibly attempting to get across the street, which he
would then be in contact with other citizens that were
in . . . [an] apartment building [and] could do harm.”
Id.
On these facts, this court decided the officers were
not entitled to qualified immunity because “material
questions of fact remain as to whether Ludwig’s actions at the time of the shooting, even if dangerous,
threatening, or aggressive, ‘posed a threat of serious
physical harm.’” Id. at 473 (cleaned up) (quoting Tennessee v. Garner, 471 U.S. 1, 11–12 (1985)). We explained that a reasonable jury could decide the officers
violated the Fourth Amendment by shooting Ludwig
after they “suspected him initially of being homeless
and emotionally disturbed, and, later, of misdemeanor
criminal activity which arguably placed no one in immediate harm.” Id. at 474.
The court today concludes that our decision in
Ludwig did not fairly warn defendants that their actions violated the Constitution because, unlike Ludwig, “Kong ran toward bystanders, including a woman
driving only 30 feet away.” Ante at 9. But officers shot
Ludwig as he ran towards a street where the officers
“could see pedestrians.” Ludwig, 54 F.3d at 469. While
Ludwig might not have been running directly towards
the pedestrians when he was shot, the officers feared
he would “attempt[] to get across the street, which he
would then be in contact with other citizens,” who

29a
were between 50 and 150 feet away. 2 Id. at 469, 473
n.6.
Although “clearly established law should not be defined at a high level of generality[,] it is not necessary
. . . that the very action in question has previously
been held unlawful,” so long as precedent evinces “a
fair and clear warning of what the Constitution requires.” Thompson v. City of Monticello, 894 F.3d 993,
999 (8th Cir. 2018) (cleaned up). In my view, Ludwig
clearly established that it is objectively unreasonable
to use deadly force against a fleeing person who is
likely experiencing a mental-health crisis and holding
a knife if that person has not committed a violent felony, is moving away from officers, and does not pose a
significant and immediate risk of serious harm. Because a reasonable jury could decide the officers violated this clearly established right when they shot
Kong, I would affirm the district court’s denial of qualified immunity. See Thompson, 894 F.3d at 1000. 3
The court cites several subsequent cases to bolster its conclusion that the right at issue here was not clearly established. Ante
at 9 (citing Estate of Morgan v. Cook, 686 F.3d 494, 497–98 (8th
Cir. 2012); Hassan v. City of Minneapolis, 489 F.3d 914, 919 (8th
Cir. 2007); Hayek v. City of St. Paul, 488 F.3d 1049, 1054–55 (8th
Cir. 2007)). However, Kong, unlike the decedents in Morgan,
Hassan, and Hayek, did not pose a significant and immediate
threat of serious injury when he was shot; therefore, those cases
are not comparable.
2

I would also affirm the denial of official immunity on the Trustee’s state-law claim. Official immunity applies unless the officers committed “a willful or malicious wrong.” See State by Beaulieu v. City of Mounds View, 518 N.W.2d 567, 569 (Minn. 1994)
(quoting Elwood v. Rice Cty., 423 N.W.2d 671, 677 (Minn. 1988)).
This depends on “the legal reasonableness of [the officers’] actions.” Id. at 571. Viewing the record in the light most favorable
to the Trustee, the officers were objectively unreasonable in their
3

30a
I respectfully dissent.

use of force, as explained above. Therefore, the district court correctly denied official immunity. See Maras v. City of Brainerd,
502 N.W.2d 69, 78 (Minn. Ct. App. 1993) (denying official immunity at summary judgment because the officer’s “intentional”
decision to shoot a person brandishing a knife, whom he deemed
a threat, along with the officer’s “aware[ness] of state and city
policy regarding the use of deadly force,” were “sufficient to let
the jury decide whether his actions constituted a willful or malicious wrong”).

31a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Sok Kong, Trustee for
Next-of-Kin
of
Map
Kong, Decedent,

Case No. 16-cv-03634
(SRN/HB)

Plaintiff,
v.

MEMORANDUM
OPINION AND ORDER

City
of
Burnsville;
Maksim Yakolev, in his
individual and official
capacity; John Mott, in
his individual and official capacity; and Taylor
Jacobs, in his individual
and official capacity,
Defendants.

Richard E. Student and Steven J. Meshesher,
Meshbesher & Associates, P.A., 10 South Fifth Street,
Suite 225, Minneapolis, MN 55402 for Plaintiff.
Patrick C. Collins and Joseph E. Flynn, Jardine Logan
& O’Brien PLLP, 8519 Eagle Point Boulevard, Suite
100, Lake Elmo, MN 55042 for Defendants.

__________________________________________
SUSAN RICHARD NELSON, United States District
Judge
A little before 6:30 AM, on Thursday, March 17,
2016, Burnsville city police officers encountered a 38-

32a
year-old man named Map Kong in the parking lot of a
local McDonalds. Mr. Kong was seated in his Pontiac
hatchback, high on methamphetamines, shaking erratically, and, most distressingly, waving around a
large knife. Around seven minutes later, three of the
officers shot and killed Mr. Kong. What happened during those seven minutes was captured on video, and
prompted this litigation.
Mr. Kong’s family, Plaintiff here, contends that the
video evidence shows police officers unreasonably using deadly force against a confused man in the midst
of a mental health crisis, in contravention of the
Fourth Amendment, as well as committing violations
of the Fourteenth Amendment and Minnesota state
negligence law. The City of Burnsville and the three
officers who shot Mr. Kong, Defendants here, disagree. They argue that the video evidence shows police
officers reasonably responding to a dangerous man on
the verge of injuring nearby civilians.
The Court is now tasked with deciding whether to
grant Defendants’ summary judgment motion, in
which Defendants argue that, given the video evidence and the generous protections afforded by federal and state immunity doctrines, the Court should
rule in their favor as a matter of law. Plaintiff vigorously opposes the motion, arguing that, when the
video evidence is construed in Mr. Kong’s favor, as it
must be, qualified immunity cannot be determined as
a matter of law, and the case must therefore go before
a jury.
For the following reasons, the Court will grant in
part and deny in part Defendants’ motion. Specifically, the Court grants Defendants’ motion with respect to Plaintiff’s Fourteenth Amendment medical

33a
indifference claim, but denies Defendants’ motion
with respect to Plaintiff’s Fourth Amendment excessive force claim and Plaintiff’s state law negligence
claim.
I. BACKGROUND
In relaying the facts of this contentious case, the
Court relies on three key principles. First, because excessive force claims are “judged from the perspective
of the reasonable officer on the scene, rather than with
20/20 vision of hindsight,” the Court must focus on
only the information the defendant officers had available to them in the moments leading up to the shooting. Graham v. Connor, 490 U.S. 386, 396 (1989); accord Tatum v. Robinson, 858 F.3d 544, 549 (8th Cir.
2017). Second, because this case is in a summary judgment posture, the Court must “not resolve genuine
disputes of fact in favor of” Defendants, and it “must
view the evidence in the light most favorable to” Plaintiff, including by drawing all “reasonable inferences .
. . in [Plaintiff’s] favor.” Tolan v. Cotton, 572 U.S. 650,
656-57, 660 (2014) (per curiam); accord Wealot v.
Brooks, 865 F.3d 1119, 1125 (8th Cir. 2017). Third,
although the Court need not accept Plaintiff’s version
of events to the extent it is “blatantly contradicted” by
video evidence, Scott v. Harris, 550 U.S. 372, 380
(2007), “inconclusive” video evidence must still be construed in Plaintiff’s favor, Raines v. Counseling Assocs., Inc., 883 F.3d 1071, 1074-75 (8th Cir. 2018); accord Thompson v. City of Monticello, 894 F.3d 993,
998-99 (8th Cir. 2018).
A. Factual Description of the Shooting
This is the rare officer-involved shooting case in
which the entire incident is captured on the four present officers’ body cameras. As such, in describing the

34a
shooting, the Court relies principally on video evidence. The Court will supplement its description of
this footage with facts gleaned from the officers’ postshooting Minnesota Bureau of Criminal Apprehension (BCA) interviews as well as various deposition
testimony.
Because Officer John Mott’s body camera appears
to best capture the entirety of the incident, the Court
will generally cite to that footage. (See Defs.’ Ex. H
[Doc. No. 38-6] (“Mott Body Camera”).) Still, because
each of the officers’ body cameras offers a unique and
important perspective, the Court will cite to other
footage when necessary. (See Defs.’ Ex. J [Doc. No. 388] (“Jacobs Body Camera”); Defs.’ Ex. N [Doc. No. 3810] (“Tonne Body Camera”); Defs.’ Ex. Q [Doc. No. 3812] (“Yakovlev Body Camera”).)
For ease of understanding, the Court will break
down the shooting into four discrete segments: (1) the
officers’ initial encounter with Mr. Kong; (2) the officers’ decision to break Mr. Kong’s car windows after
their commanding officer, Sergeant Maksim Yakovlev, arrived; (3) the officers’ use of a taser on Mr.
Kong; and (4) the officers’ use of deadly force on Mr.
Kong. At the outset, though, the Court again emphasizes that most of the events described below took
place over the course of only seven minutes.
1. The Officers Encounter Mr. Kong in His
Car After Receiving a 9-1-1 Call and
Consider Their Options
At 6:16 AM, on Thursday, March 17, 2016, a customer at the Burnsville McDonalds near State Highway 13 called 9-1-1. (See Defs.’ Ex. G [Doc. No. 38-5]
(“Incident Recall Report”).) The customer calmly told
the operator that the police “should send a car down”

35a
because “a guy” was “jumpin’ back and forth” inside
his car in the parking lot, and had a “knife in his hand”
that “he’s been waving back and forth.” (Defs.’ Ex. D
[Doc. No. 38-3] (“9-1-1 Call Transcript”); see also Defs.’
Ex. C [Doc. No. 38-2] (audio recording of call).) The
customer then clarified that the car was not running,
and that the man had been “carrying on” like this for
at least a half an hour. (9-1-1 Call Transcript at 2.)
The customer also noted that he was not sure if somebody else was in the car. (Id. at 1.)
A dispatcher simultaneously relayed to police officers in the area that “suspicious” activity was occurring
at the Burnsville McDonalds off Highway 13. (Defs.’
Ex. F [Doc. No. 38-5] at 1 (“Transcript of Police Department Radio Traffic”); see also Defs.’ Ex. E [Doc.
No. 4] at 00:10-00:30 (“Audio Radio Traffic ).) Namely,
“a male in the vehicle in the lot who is jumping up and
down inside his car . . . unknown if he is alone . . . he
may be waving a knife back and forth inside the car.”
(Id.) Shortly thereafter, the dispatcher added that the
“vehicle ha[d] been there for more than half an hour,”
and that an employee had seen the knife. (Id. at 2:09
to 2:18.) The officers did not receive information that
the “suspicious” individual had directly threatened
anyone at the McDonalds, or that he had committed a
crime. 1
For the sake of thoroughness, the Court notes four more preliminary facts it gleaned from the record. First, the “suspicious”
individual’s name was Map Kong, a 38-year-old CambodianAmerican male residing in Chaska, Minnesota. (See Defs.’ Ex.
EE [Doc. No. 41] (“Hennepin County Medical Examiner’s HCME
Report”).) Second, Mr. Kong had a history of intermittent mental
health and substance abuse issues. (See Defs.’ Ex. T [Doc. No. 40]
at 4-5 (“Expert Report of Dr. Stacy Hail”).) Third, according to an
interview with Mr. Kong’s neighbor, Mr. Kong came over to the
1

36a
In response to this dispatch, Burnsville city police
officers John Mott and Taylor Jacobs arrived in separate vehicles at the McDonalds parking lot around
6:22 AM. (See Incident Recall Rep.) Officer Mott had
been a police officer for around eight years. (Defs.’ Ex.
L [Doc. No. 38-9] at 8 (“Mott Deposition”).) 2 Further,
because Officer Mott had taken a “40-hour week long
crisis intervention training” course five years prior,
the City considered him a “Crisis Intervention Training (CIT) member.” (Id. at 30, 70-71.) Per the Burnsville Police Department’s “Crisis Intervention Policy”
(also known as Policy No. 423, or CIT Policy), a CIT
member should be the lead officer when dealing with
someone “who may be experiencing a mental health or
emotional crisis,” 3 and should attempt to follow the
neighbor’s home around 10:00 PM the night before the shooting,
acting “crazy” and claiming that “he was being followed by a female who was trying to hurt him.” (See Defs.’ Ex. NN [Doc. No.
38-18] at 3-4 (“Dakota County Memorandum on Kong Shooting”).) Because the neighbor “had never seen Mr. Kong behave
this way,” he offered to take him ot the hospital. (Id.) Instead,
however, Mr. Kong acted “scared and fled the residence,” not
wearing socks or shoes. (Id.) Fourth, according to security camera footage, Mr. Kong parked int eh McDonalds lot around 1:00
AM, after having gone through the drive-thru. (See Defs.’ Ex. W
[Doc. No. 38-16] at 19 (“Expert Report of Forensic Video Solutions”).) There is no evidence that Mr. Kong left his car at any
point from then until the moments before his death.

However, because this information was not available to the
officers at the time of the shooting, the Court will not rely on it
in evaluating the reasonableness of Defendants’ actions.

All deposition and interview citations are to the deposition or
interview page number, rather than the ECF page number.
2

Signs that a person may be in a “mental health crisis” include:
“delusions or hallucinations,” “manic or impulsive behavior, extreme agitation, lack of control,” and “lack of fear.” (CIT Policy at
1-2.)

3

37a
“de-escalation” steps outlined by the policy, with the
goal of “resolv[ing] the incident by the safest and least
confrontational means possible.” (Defs.’ Ex. RR [Doc.
No. 38-19] at 2 (“CIT Policy”).) These steps include requesting backup officers and specialized resources,
turning off flashing lights, acknowledging a person’s
potential inability to understand commands, securing
the scene and clearing the immediate area, and, if possible, “passively monitoring the situation” and/or using alternatives to force. (Id.) Officer Jacobs had been
a police officer for four years, and, although he was not
a CIT member, he was familiar with the Burnsville
police department’s CIT policy. (See Defs.’ Ex. M [Doc.
No. 38-9] at 6, 37-38 (“Jacobs Deposition”).)
Upon parking, Officer Jacobs took down Mr.
Kong’s license plate number, but did not request any
further information connected to the license plate
number. (See Defs.’ Ex. J [Doc. No. 38-8] at 0:40-0:44
(“Jacobs Body Camera”); see also Jacobs Dep. at 9
(stating that, although he could have asked dispatch
for additional information connected to a license plate,
he did not do so in this case).) Then, because the sun
had not yet risen, Officers Jacobs and Mott approached Mr. Kong’s blue Pontiac hatchback with
flashlights (and firearms) drawn. (See Mott Body
Camera at 1:20-1:25.) 4
In the body camera footage, one can see steady
weekday morning traffic in the background, both on
the Frontage Road directly abutting the McDonalds,
and, more particularly, on Highway 13, which lay a
short distance from the parking lot. (See, e.g., id. at

Both of the officers’ body camera were on from the moment they
arrived.

4

38a
00:50-1:00.) Further, over the course of this encounter, one can see cars turning into the McDonalds parking lot en route to the drive-thru. (See Defs.’ Ex. W
[Doc. No. 38-16] at 19 (“Expert Report of Forensic
Video Solutions”) (noting that, over the course of the
incident, 13 civilian vehicles moved in and out of the
parking lot).) However, one cannot see any pedestrians walking around, possibly because of the early
morning hour and the fact that the surrounding properties are all commercial/industrial in nature. (See
Defs.’ Br. in Support of Summ. J. (“Defs.’ Br.”) [Doc.
No. 37] at 5 (displaying screenshot of area from Google
Maps, which the Court replicates below).)

When Officers Mott and Jacobs reached the vehicle, they encountered a very agitated Mr. Kong. Specifically, Mr. Kong was seated in the drivers’ seat with
the windows rolled up, and he was rocking back and
forth while slashing a large knife through the air in
front of him, as if he was fighting an invisible person.

39a
(See, e.g., Mott Body Camera at 1:40-1:45.) In an interview taken hours after the incident, Officer Mott
aptly described Mr. Kong’s motions as “frantic” and
“abnormal.” (Defs.’ Ex. JJ [Doc. No. 38-18] at 7 (“Mott
BCA Interview”); see also Defs.’ Ex. KK [Doc. No. 3818] at 11 (“Jacobs BCA Interview”) (stating that, when
he first saw Mr. Kong, he “looked like he was in some
sort of distress”).) At their depositions, both officers
also stated that, at the time, they thought Mr. Kong
was under the influence of methamphetamines or
bath salts. (See Mott Dep. at 21; Jacobs Dep. at 10.)
Nonetheless, both officers also contended at their depositions that, at the time, they did not believe this was
a “mental health situation,” in which the aforementioned CIT policy would apply. (See Mott Dep. at 21,
64-70, 72-73; Jacobs Dep. at 14, 25-26, 38.)
With their firearms and flashlights pointed directly at Mr. Kong, the officers immediately (and repeatedly) began yelling at Mr. Kong to “drop the knife”
and show his hands, but to no avail. (See Mott Body
Camera at 1:20-2:10.) Officer Jacobs also informed
Mr. Kong that he was under arrest. (Id. at 1:34.) Although Officer Jacobs did not tell Mr. Kong what he
was under arrest for at the time, at his deposition Officer Jacobs clarified that he could have arrested Mr.
Kong for “disorderly conduct, threats of violence . . .
obstruction.” (Jacobs Dep. at 10; see also Defs.’ Br. at
23 (providing statutory citations).) 5

Specifically, Officers Mott and Jacobs believed Mr. Kong had
committed (or was committing) felony terroristic threats (Minn.
Stat. § 609.713), gross misdemeanor obstruction of justice (Minn.
Stat. § 609.50), and misdemeanor disorderly conduct (Minn. Stat.
§ 609.72).

5

40a
About 30 seconds after Officers Mott and Jacob
first approached Mr. Kong, a third Burnsville city police officer, Officer Lynrae Tonne, arrived. (See Mott
Body Camera at 2:10 (car pulling up), 2:40 (joining officers).) Officer Tonne had been a police officer for
around 18 years, and, like Officers Jacobs, was familiar with the CIT policy, but not a CIT team member.
(See Defs.’ Ex. P [Doc. No. 38-11] at 6, 30 (“Tonne Deposition”); Defs.’ Ex. LL [Doc. No. 38-18] at 3 (“Tonne
BCA Interview”).) At Officer Mott’s direction, Officer
Tonne parked her squad car immediately in front of
Mr. Kong’s vehicle. (See Mott Body Camera at 2:102:12.)
Because verbal commands and pointed handguns
were not causing Mr. Kong to drop the knife (or having any effect on him at all), the three officers began
discussing alternative options. In between continued
shouts of “drop the knife!”, Officer Mott suggested
“bust[ing] a window” and “tas[ing] him,” to which Officer Jacobs said, “we can hold off a little bit here, but
we can bust the window and tase him if you want.”
(Mott Body Camera at 2:30-2:48.) “If he gets out,” Officer Jacobs added, “I’ll go lethal.” (See id. at 2:48-2:50;
Jacobs Dep. at 11 (explaining that, to police, “go lethal” means having one’s handgun out and ready to
fire).) The officers then contemplated how best to surround Mr. Kong’s car so as to taser him without risking “cross fire,” which prompted Officer Mott to comment, “this is going to go badly either way.” (Mott
Body Camera at 3:22.) At one point, Officer Jacobs observed that Mr. Kong might have a gun in the car, too.
(Id. at 4:56.)
Still, for roughly another three minutes, the officers did not take further action against Mr. Kong. Instead, they held their ground around the car and

41a
watched Mr. Kong occasionally burst into frantic fits
of gyrations and knife waving, as he had been doing
since the officers arrived. (See generally id. at 3:206:20.) At no point did Mr. Kong attempt to exit the car
or engage with the officers. Perhaps because of this,
Officer Tonne stated, “he’s contained for now, so let’s
just wait until other people get here.” (Id. at 4:104:16.) However, the officers did not discuss this “containment” option, or any other tactical decisions, at
length.
Moreover, during this three-minute pause Officer
Jacob called for a “stage medic” and then moved his
squad car behind Mr. Kong’s vehicle, so that Officer
Tonne’s car and his car would block Mr. Kong in from
the front and back. (Id. at 5:40; see also Jacobs Body
Camera at 3:54; Audio Radio Traffic at 10:04.) Although there was no discussion at the time as to why
Officers Jacobs called for a medic, at his deposition Officer Jacobs stated that “staging medics [at the scene]
is something I commonly do . . . if I see somebody
that’s under the influence of what I believe to be methamphetamines.” (Jacobs Dep. at 15-16.) He also expressed concern about “a potential victim in the car.”
(Id.) 6
Around the same time, Officer Mott requested that
any additional units “completely block off traffic com-

Although Officer Jacobs did not inform the dispatcher of any
mental health concerns, the dispatcher who conveyed Officer Jacobs’s request to the medic treated the situation as a “possible
psych hold.” In other words, she thought Mr. Kong’s “behaviors
would indicate the medics are being requested because of possible psycho[logical] issues,” based on the 9-1-1 call notes she had
in front of her. (Pl.’s Ex. C [Doc. No. 49-3] at 7, 11-12 (“Kristeen
Kennedy Deposition”).)

6

42a
ing into the McDonalds parking lot.” (Mott Body Camera at 5:50-5:54; Audio Radio Traffic at 11:24.) However, neither officer appeared to confirm when medics
and/or additional units would arrive.
2. After Seargeant Yakolev Arrives, the
Officers Decide to Break Two of Mr.
Kong’s Car Windows to See If Anyone
Else Is Inside
This momentary lull in activity concluded when
Sergeant Maksim Yakovlev arrived on the scene. (See
Tonne Body Camera at 3:50; see also Incident Recall
Rep. (noting that Sergeant Yakovlev (“Stat
BV/45S39”) arrived at 6:30 AM).) Sergeant Yakovlev
had been a police officer for 13 years, including a sergeant for four of those years, and was familiar with
the department’s CIT policy. (See Defs.’ Ex. S [Doc.
No. 38-13] at 6-7, 30 (“Yakovlev Deposition”).)
After parking his brightly-lit squad car at the
Frontage Road entrance to the McDonalds (albeit
without completely blocking off the entrance), Sergeant Yakovlev approached his fellow officers and
asked whether Mr. Kong was “cutting himself or
what,” to which Officers Jacobs replied “no, he’s just
swinging the knife around.” (Jacobs Body Camera at
5:40-5:45.) Officer Jacobs then assessed the situation
for Sergeant Yakovlev: “So, our options so far, he’s
contained, we can bust the window and pop him with
a Taser, ’cause if he hops out of that car . . . .” (Id. at
5:45-5:55.) Officer Mott added that, while it looked as
though Mr. Kong was by himself, they could not see
the backseat. (Id. at 6:03-6:05.)
In response, Sergeant Yakovlev suggested that the
officers “figure out if he’s by himself there first.” (Yakovlev Body Camera at 1:55-2:00.) After circling

43a
around toward the passenger side of Mr. Kong’s car
(the side of the car farther away from Frontage Road),
and finding those windows just as fogged up as the
ones on the drivers’ side, Sergeant Yakovlev and Officer Mott instructed Officer Jacobs to “bust out [Mr.
Kong’s] back window” with his baton, while still
“watch[ing] the cross-fire.” (Id. at 2:30-2:30.)
As the officers surrounded the Pontiac even more
closely, Mr. Kong continued to frantically gyrate back
and forth in his seat, knife in hand. (See Mott Body
Camera at 7:00-7:20.) The officers did not discuss
what they would do if Mr. Kong was, in fact, alone in
his vehicle, or what they would do if Mr. Kong “hopped
out of the car,” as Officer Jacobs had alluded to a moment earlier. Rather, as Officers Jacobs began swinging his baton into Mr. Kong’s car window, the three
other officers stood in an L-shaped formation around
the car, guns aimed at Mr. Kong. 7
3. The Officers Twice Taser Mr. Kong,
Who Is Still Sitting Inside His Car
At this point, everything began to move very
quickly. Immediately after Officer Jacobs successfully
smashed Mr. Kong’s passenger-side windows, Officers
Tonne and Mott again began yelling at Mr. Kong to
After the fact, Officer Mott explained the officers’ strategy as
follows: “Our game plan was to get him to drop the knife and
come out of the vehicle with no weapons in his hands so we could
figure out what the deal was and so he wasn’t presenting a threat
to all the people that were around us.” (Mott. Dep. at 48-49.) “As
long as he [was] in that car we [were] not going to be able to make
the situation safe,” Officer Mott emphasized. (Id.) Officer Mott
also stated that, given the presence of civilians in the area,
breaking the car window and deploying a taser presented “the
fastest, safest way to try to come to a good resolution of this.” (Id.
at 52.)
7

44a
“drop the knife!” (See Mott Body Camera at 7:40-7:45.)
At the same time, and without further discussion, Officer Jacobs exclaimed “taser, taser,” and fired his
taser at Mr. Kong. (Id. at 7:45; see also Jacobs Dep. at
22, 39 (asserting that “taser, taser” functioned as a
warning for both Mr. Kong and his fellow officers).)
Although Mr. Kong made various high-pitched, distressed squealing noises in response to this activity,
the taser did not cause him to either drop his knife or
cease bouncing up and down in his seat. (See, e.g.,
Mott Body Camera at 7:42, 7:55.) Further, although
Mr. Kong had not moved to exit his vehicle at this
point, Sergeant Yakovlev, standing near the front of
the car, closest to Mr. Kong, repeatedly said “he’s coming out” and readied his firearm. (See Yakovlev Body
Camera at 2:56-2:58; see also Forensic Video Analysis
Ex. Rep. at 17 (noting that Sergeant Yakovlev stood
about ten feet from Mr. Kong’s car).)
About ten seconds later, as Officer Jacobs prepared
to fire a second taser round at Mr. Kong (presumably
because the first one did not have the desired effect),
Mr. Kong swung his knife closer to the broken passenger-side window. Mr. Kong then fell back in his seat
as the second taser shot hit him. (See Mott Body Camera at 8:03-8:07; Tonne Body Camera at 5:38-5:40; see
also Defs.’ June 1, 2018 Letter [Doc. No. 56] (providing
further detail on this point).) Defendants describe this
moment as an “assault” on Officer Jacobs, in which
Mr. Kong “violently swung and lunged his large knife
out of the broken passenger side window at [Officer]
Jacobs.” (Defs’ Br. at 13; see also id. at 23 (citing Minn.
Stat. § 609.221, subd. 2 (first degree felony assault on
a police officer).) Plaintiff, by contrast, interprets Mr.
Kong’s motion as part and parcel of the “the erratic
arm motions he had been making prior to the taser

45a
deployment,” or, “at most,” a defensive reaction “to the
taser cartridge and/or wire at the moment the taser is
deployed for a second time.” (See Pl.’s Br. in Opp’n to
Defs.’ Summ. J. Mot. [Doc. No. 48] at 10 (“Pl.’s Br.”))
4. The Officers Shoot and Kill Mr. Kong as
He Attempts to Flee His Car
In either event, right after the second taser round
hit Mr. Kong, Mr. Kong stumbled out of the driverside door and fell to the pavement. (See Yakovlev Body
Camera at 3:15; Mott Body Camera at 8:06-8:08.)
However, he quickly stood up, knife in hand, and began running north toward Frontage Road, away from
the officers and away from the McDonalds. (See Yakovlev Body Camera at 3:16-3:21; Mott Body Camera
at 8:09-8:12.) One onlooker from inside the restaurant, a McDonalds employee named Guadalupe Sandoval, stated that, when Mr. Kong fled his car, he
looked “scared.” (See Defs.’ Ex. Y [Doc. No. 38-17] at
14 (“Sandoval Deposition”) (explaining that, after the
officers tased Mr. Kong, “he opened the door scared
and ran”).) 8
Then, without further discussion or warnings, Officers Mott, Jacobs, and Yakovlev shot Mr. Kong from
the back and side, ultimately firing at least 23 bullets
within a span of three seconds. (See Dakota Cty. Mem.
at 7 (number of bullets); Forensic Video Solutions Ex.
Rep. at 25 (timespan).) 15 bullets hit Mr. Kong, killing
him instantly. (See Dakota County Memorandum at
8; see also Mott Body Camera at 10:00-10:05 (finding
Ms. Sandoval also recorded a cellphone video of the final seconds of the shooting from inside the restaurant. (See Defs.’ Ex. V
[Doc. No. 38-15] (“Sandoval Cell Phone Video”).) However, in the
Court’s view, the body camera videos provide a far clearer visual
of the shooting.
8

46a
no pulse upon checking Mr. Kong’s body).) Officer
Mott later stated that this was the first time he had
discharged his weapon in the line of duty. (See Mott
BCA Interview at 14.)9
At the time of the shooting, the video evidence
shows a tan civilian vehicle exiting the McDonalds,
driven by a woman named Patricia Unterschuetz,
around 30 feet northwest of Mr. Kong. (See Forensic
Video Solutions Ex. Rep. at 17-18; Yakovlev Body
Camera at 3:11-3:13.) Indeed, one of the officer’s bullets lodged into Ms. Underschuetz’s back bumper as
she pulled out of the parking lot. (See Defs.’ Ex. BB
[Doc. No. 38-17] (“Pictures of Bullet in Ms. Unterschuetz’s Vehicle”); Defs.’ Ex. X [Doc. No. 38-17] at 2023 (“Unterschuetz Deposition”) (explaining that she
did not realize a bullet hit her car until later that
day).) Moreover, steady traffic on Highway 13 is visible in the background, as are a few cars driving along
Frontage Road. (See, e.g., Mott Body Camera at 8:128:20; Tonne Body Camera 5:55-6:05.)
However, apart from the officers and the McDonalds’ customers and employees in the store, all of
whom Mr. Kong was moving away from at the time of
his death, no pedestrians are visible in the video. (Accord Mott Dep. at 38 (confirming that, at the time of
the incident, he did not recall Mr. Kong running toward “any pedestrians not in vehicles”).) Further, although Defendants argue that Officer Mott and
Tonne’s body cameras show Mr. Kong “sprinting toward [Ms.] Unterschuetz with a long knife in his right
Although Officer Tonne did not fire her weapon, she has consistently stated that she only did so because she was not in a good
shooting position, and that her fellow officers were justified in
using deadly force against Mr. Kong. (See, e.g., Tonne Dep. at 15.)
9

47a
hand,” (Defs.’ Letter June 1, 2018 Letter at 2), when
one views the videos in the light most favorable to
Plaintiff, it appears that Mr. Kong is simply running
in the direction of Frontage Road, and away from the
officers tasing him, rather than at Ms. Underschuetz’s
vehicle in particular. (See, e.g., Mott Body Camera at
8:10.)
Still, in both their BCA interviews and depositions,
all four officers contended that when Mr. Kong ran
from his car, knife in hand, he posed an imminent
threat of “great bodily harm or death” to both themselves and the surrounding public. (SeeDefs.’ Br. at 17
(collecting record citations).) For instance, Officer
Mott stated that, even if Mr. Kong was not poised to
attack any one person or car, deadly force was justified because “there was cars constantly coming and
going,” including “traffic just basically across the
parking lot on Highway 13.” (Mott Dep. at 37; see also
Yakovlev Dep. at 21 (stating that, regardless of Mr.
Kong’s intent, Mr. Kong had the “opportunity and
means” to harm “people that are on Highway 13 and
the Frontage Road and in that general area, including
my officers”).) More specifically, Sergeant Yakovlev
worried that, “if [Mr. Kong] would’ve got close enough
to that traffic, then he could either carjack a car or
stab somebody or run in the traffic and get hit himself.” (Defs.’ Ex. MM [Doc. No. 38-18] at 20 (“Yakovlev
BCA Interview”).) 10

At oral argument, Defendants’ counsel amplified this fear:
“COURT: And what risk did Mr. Kong pose to [civilians] with a
knife if they are in a vehicle? COUNSEL: He could easily have
opened the door and stabbed them. He could highjack them. We
have carjackings that happen all the time.” (May 25, 2018 Hr’g
Tr. at 12-13.)
10

48a
Ms. Sandoval, the aforementioned McDonalds employee, and Kimberly Starinskis, a McDonalds drivethru customer who exited the premise seconds before
the shooting, also said that, at the time, they feared
for the safety of everyone around Mr. Kong. (See Sandoval Dep. at 15, 19; Defs. Ex. HH [Doc. No. 38-18] at
23-24 (“Starinskis Deposition”).) 11
5. The Aftermath
Almost immediately after the officers shot Mr.
Kong another Burnsville police officer, detective Sergeant Gast, arrived on the scene, followed by three
more police officers in the ensuing minutes. (See generally Yakovlev Body Camera at 3:40-10:00; Yakovlev
Dep. at 12-14; Incident Recall Rep. (showing that Sergeant Gast arrived at 6:31 AM, followed by other officers at 6:34, 6:38, and 6:46 ).) Some of these officers
were from the neighboring Savage, Minnesota police
department, which Sergeant Yakovlev had radioed for
assistance after Mr. Kong’s death. (Id.) 12

Although, in fairness, Ms. Sandoval also said she felt fear “because [the police] shot [Mr. Kong] and [she] had never seen anyone die in front of [her].” (Sandoval Dep. at 15.) And Ms.
Starinskis admitted that her fear stemmed from seeing Mr.
Kong’s movements in his car as she drove by, rather than from
Mr. Kong’s dash from his car. (Starinskis Dep. at 34-35.)
11

Although Sergeant Yakovlev attests that no other officers were
available from the Burnsville Police Department the morning of
March 17, (see Defs.’ Ex. SS [Doc. No. 38-20] at 2-3 (“Affidavit of
Sergeant Maksim Yakovlev”)), it is not clear why the officers did
not try to call upon other departments, like the Savage Police
Department, prior to breaking into Mr. Kong’s vehicle (See Yakovlev Dep. at 12-14 (stating that “we can request help from . . .
Savage, Minnesota State Patrol, Eagan Police Department, Apple Valley Police Department, Bloomington”).)

12

49a
Medics arrived about five minutes after the shooting, at 6:35 AM, and carried away Mr. Kong’s body.
(See Yakovlev Body Camera at 9:44; Incident Recall
Rep.) A post-mortem toxicology test confirmed that
Mr. Kong was under the influence of amphetamines
and methamphetamines at the time of his death. (See
Dakota Cty. Mem. at 8.)
Per County policy, the Dakota County Attorney’s
office empaneled a grand jury to consider filing criminal charges against Officers Jacobs, Mott, and Yakovlev. (See Defs.’ Ex. NN [Doc. No. 38-18] (“Dakota
County Press Release”).) However, on June 21, 2016,
the County Attorney announced that the grand jury
had concluded that the officers’ use of deadly force was
justified under Minnesota law. (Id.)
B. Procedural History
1. Claims and Defenses at Issue
A few months later, on October 26, 2016, the courtappointed trustee for Mr. Kong’s next-of-kin, which
include Mr. Kong’s “two sons, his parents, and his
nine siblings,” filed this lawsuit. (See Compl. [Doc. No.
1] ¶ 4.) In it, the trustee (hereinafter “Plaintiff”) asserted Section 1983 claims against Officers Mott, Jacobs, and Yakovlev (hereinafter “Defendants”) for (1)
use of excessive force against Mr. Kong, in violation of
the Fourth Amendment and (2) deliberate indifference to Mr. Kong’s objectively serious medical needs,
in violation of the Fourteenth Amendment. Plaintiff
also asserted a state law negligence claim against Defendants for failing to adhere to various Burnsville Police Department policies during their encounter with

50a
Mr. Kong, particularly the aforementioned CIT Policy.
(Id. ¶ 55.) 13
Defendants jointly answered on December 2, 2016.
(See Answer [Doc. No. 10].) In their Answer, Defendants asserted various defenses, including qualified
immunity. (See id. ¶¶ 57-59.)
2. Dueling Expert Reports Produced During Discovery
During discovery, both sides produced expert witness reports, in addition to the depositions and video
evidence described above.
Defendants produced four expert reports. First,
Forensic Video Solutions provided more detailed factual information concerning the distance between various people and objects in the McDonalds’ parking lot,
the limitations of body cameras, and the timing of the
officers’ gunshots. (See Forensic Video Solutions Ex.
Rep.) Second, Dr. Stacy Hail, an emergency medical
physician and medical toxicologist, opined that law
enforcement officers would not be expected to know
the difference between methamphetamine intoxication and acute psychosis due to mental illness, and
that medics could not have assisted Mr. Kong at the
time of his death because Mr. Kong presented “a danger to himself and others” and the scene was not secure. (See Defs.’ Ex. T [Doc. No. 40] at 15 (“Dr. Hail
Although Plaintiff also asserted claims against the City of
Burnsville for “failure to train” and for direct municipal negligence, Plaintiff later agreed to dismiss those claims. (See Mar.
13, 2018 Stipulation for Dismissal [Doc. No. 32].) However,
Plaintiff still seeks to hold the City of Burnsville vicariously liable under the remaining negligence claim. (Id.) For ease of reference, though, the Court will continue to refer to the three officer
Defendants as “Defendants.”
13

51a
Expert Report”).) Third, Steven Wickelgren, the Clinical Director of Minnesota’s CIT Officers’ Association,
opined that, given Mr. Kong’s “uncertain” and “unpredictable” behavior, the officers “acted safely and used
appropriate de-escalation and CIT tactics.” (See Defs.’
Ex. II [Doc. No. 38-18] at ECF 20 (“Wicklgren Expert
Report”).) Fourth, Stuart Robinson, a law enforcement
expert, opined that the officers’ use of deadly force was
proper, and consistent with “accepted law enforcement standards” and “commonly instructed law enforcement training and practice.” (See Defs.’ Ex. OO
[Doc. No. 38-18] at 3 (“Robinson Expert Report”).)
For their part, Plaintiff produced two expert reports. First, D.P. Van Blaricom, a law enforcement expert, opined that the officers “failed to make a reasonable approach to [Mr. Kong], who was demonstrably
experiencing a psychotic episode,” and that it was “objectively unreasonable” to “fatally shoot” Mr. Kong under the circumstances. (See Pl.’s Ex. A [Doc. No. 49-1]
at 13, 17 (“Blaricom Expert Report”).) Second, Dr.
James Alsdurf, a psychologist, opined that, at the time
of his death, Mr. Kong was exhibiting “such disorganized thinking and feeling” that his actions “offered
an objective need for medical attention.” (See Pl.’s Ex.
B [Doc. No. 49-2] at 4 (“Alsdurf Expert Report”).)
3. Defendants Move for Summary Judgment
Following discovery, on April 13, 2018, Defendants
moved for summary judgment on all three of Plaintiff’s claims. Specifically, Defendants contend that, as
a matter of law, “there were no Fourth or Fourteenth
Amendment violations, the Officers are entitled to
qualified immunity,” and, with respect to the negligence claim, “the Defendants are entitled to official

52a
and vicarious official immunity.” (Defs.’ Br. at 3.)
Plaintiff filed an opposition brief on May 4 (see Pl.’s
Br.), and Defendants replied on May 11 (see Defs.’s
Reply Br. [Doc. No. 50]). The Court heard oral argument on May 25. Shortly thereafter, Defendants submitted a letter further elaborating on certain aspects
of the body camera evidence, and Plaintiff responded.
(See Defs.’ June 1, 2018 Letter; Pl.’s June 4, 2018 Letter [Doc. No. 57].)
II. DISCUSSION
Summary judgment is proper if there are no disputed issues of material fact and the moving party is
entitled to judgment as a matter of law. See Fed. R.
Civ. P. 56(a). As the Court noted above, in reviewing
Defendant’s motion for summary judgment, the Court
must “not resolve genuine disputes of fact in favor of”
Defendants, and it “must view the evidence in the
light most favorable to” Plaintiff, including by drawing all “reasonable inferences . . . in [Plaintiff’s] favor.”
Tolan, 572 U.S. at 656-57, 660. As the Eighth Circuit
recently re-affirmed, this principle holds equally true
in officer-involved shooting cases captured on video.
See Raines, 883 F.3d at 1074-75 (finding a genuine
factual dispute existed where “the video evidence” was
“inconclusive as to whether or not [the knife-wielding
plaintiff] advanced on the officers in a manner that
posed a threat of serious physical harm to an officer”).
With this standard in mind, the Court addresses
each of Plaintiff’s claims in turn.
A. Plaintiff’s Section 1983 Claims
1. Qualified Immunity
Two of Plaintiff’s claims – their Fourth Amendment claim and their Fourteenth Amendment claim –

53a
arise under 42 U.S.C. § 1983. Section 1983 allows
plaintiffs to sue state and local government officials
who allegedly violate their constitutional rights for
money damages. However, the defense of qualified immunity “protects government officials from incurring
civil liability” under Section 1983 if the official’s “conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Wealot, 865 F.3d at 1124-25
(quoting Pearson v. Callahan, 555 U.S. 223, 231
(2009)). To determine if qualified immunity applies, a
court must ask two questions: “(1) whether the facts
the plaintiff has presented, when viewed in his favor,
show that the conduct of the officer violated a constitutional right, and (2) whether that constitutional
right was clearly established at the time of the incident such that a reasonable officer would have known
his or her actions were unlawful.” Neal v. Ficcadenti,
895 F.3d 576, 580 (8th Cir. 2018).
Courts have discretion to decide the order in which
to engage these two prongs. See Pearson, 555 U.S. at
236. But under either prong, courts may not resolve
genuine disputes of fact in favor of the party seeking
summary judgment. See Wealot, 865 F.3d at 1124.
2. Excessive Force Under the Fourth
Amendment
a. Whether There Was
Amendment Violation

a

Fourth

1. The Law
The Fourth Amendment of the U.S. Constitution
protects individuals against “unreasonable searches
and seizures.” U.S. Const. amend. IV. Excessive force

54a
claims are “seizures” subject to the reasonableness requirement of the Fourth Amendment. See Graham v.
Connor, 490 U.S. 386, 395 (1989). Because “reasonableness” is an objective standard, “an officer’s evil intentions will not make a Fourth Amendment violation
out of an objectively reasonable use of force; nor will
an officer’s good intentions make an objectively unreasonable use of force constitutional.” Id. Rather, “the
question is whether the officers’ actions are ‘objectively reasonable’ in light of the facts and circumstances confronting them, without regard to their underlying intent or motivation.” Id.
Considering whether a police officer acted “objectively reasonably,” then, “requires balancing ‘the facts
and circumstances of each particular case, including
[1] the severity of the crime at issue, [2] whether the
subject posed an immediate threat to the safety of the
officers or to others, and [3] whether the suspect was
actively resisting arrest or attempting to evade arrest
by flight.” Wealot, 865 F.3d at 1125 (citing Graham,
490 U.S. at 396). Further, because “[t]he intrusiveness
of a seizure by means of deadly force is unmatched,”
Tennessee v. Garner, 471 U.S. 1, 9 (1985), “the use of
deadly force against a fleeing suspect who does not
pose a significant and immediate threat of serious injury or death to an officer or others is not permitted,”
Capps v. Olson, 780 F.3d 879, 886 (8th Cir. 2015). This
distinction between using deadly force on a non-compliant subject versus other forms of force makes sense
because, “even when officers are justified in using
some force, they violate suspects’ Fourth Amendment
rights if they use unreasonable amounts of force.” Tatum v. Robinson, 858 F.3d 544, 550 (8th Cir. 2017)
(emphasis added).

55a
However, in reviewing an officer’s actions, a court
must keep in mind that “police officers are often forced
to make split-second judgments – in circumstances
that are tense, uncertain, and rapidly evolving – about
the amount of force that is necessary in a particular
situation.” Church v. Anderson, 898 F.3d 830, 833 (8th
Cir. 2018) (quoting Graham, 490 U.S. at 396-97). And,
as the Court noted above, courts must judge the reasonableness of an officer’s use of force “from the perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Graham, 490
U.S. at 396.
2. Analysis
The Fourth Amendment “objective reasonableness
analysis must be conducted separately for each search
or seizure that is alleged to be unconstitutional.” Frederick v. Motsinger, 873 F.3d 641, 645-46 (8th Cir.
2017) (quoting Cty. of L.A. v. Mendez, 137 S. Ct. 1539,
1546 (2017)). Plaintiff here only argues that Defendants’ use of deadly force was an unconstitutional seizure. As such, the Court will only consider Defendants’ actions in the seven minutes leading up to Mr.
Kong’s death, such as Defendants’ decision to break
Mr. Kong’s car windows and taser him, insofar as it is
alleged that those actions, and the information Defendants gleaned during that time period, rendered
Defendants’ ultimate decision to shoot and kill Mr.
Kong unreasonable. See Gardner v. Buerger, 83 F.3d
248, 253-54 (8th Cir. 1996) (holding that, although
plaintiffs “must present evidence that the seizure itself, not its prologue, was unreasonable before [they]
can get to a jury with [their] § 1983 claim,” evidence
about the “surrounding circumstances” may be relevant to the “ultimate question” of “whether the use of
deadly force was reasonable”).

56a
On this inquiry, the Court finds that, even taking
into account the “tense” and “uncertain” nature of Defendants’ encounter with Mr. Kong, Church, 898 F.3d
at 833, two genuine disputes of material fact preclude
the Court from deeming the officers’ use of deadly
force objectively reasonable as a matter of law: First,
there is a material dispute as to whether Mr. Kong
had committed a violent felony before the officers shot
him (i.e., by “assaulting” the officers), such that the
officers reasonably would have thought him likely to
hurt others. Second, there is a material dispute as to
whether the fleeing Mr. Kong posed a significant and
immediate threat of serious injury or death to the surrounding public, simply because he was holding a
knife and running in the general direction of highway
car traffic. 14
a. Whether Mr. Kong Committed
A Violent Felony Before the
Shooting
In determining whether deadly force was objectively reasonable, courts may consider whether “[t]he
record conclusively demonstrate[s] that [a decedent]
committed [a] violent felony” before being shot. Wallace v. City of Alexander, 843 F.3d 763, 768 (8th Cir.
Plaintiff also disputes whether Defendants provided Mr. Kong
with sufficient warnings before resorting to deadly force. See
Garner, 471 U.S. at 11 (holding that, in deadly force cases, officers must give a suspect “some warning” before shooting, if “feasible”). However, because the Eighth Circuit has interpreted this
warning requirement as being satisfied by an officer merely
pointing a gun at someone holding a knife and commanding them
to drop the knife, and because it is not disputed that Defendants
gave such a warning (repeatedly) here, the Court finds no dispute
of material fact on this issue. See, e.g., Loch v. City of Litchfield,
689 F.3d 96, 967 (8th Cir. 2012).
14

57a
2016). In Wallace, for instance, a police officer claimed
at her deposition that an individual committed an “aggravated assault” by pointing a gun directly at her,
prior to her use of deadly force. Id. (citing state law
that pointing a gun at someone constituted aggravated assault). However, because the officer had not
said that the decedent pointed a gun directly at her in
an earlier, post-shooting interview, the Eighth Circuit
found that a jury could “credit [the officer’s] first statements over the subsequent versions and conclude that
[the decedent] had not committed a violent felony before he himself was seized with force.” Id.; compare
with Brossart v. Janke, 859 F.3d 616, 625 (8th Cir.
2017) (finding repeated use of a taser reasonable
where “the undisputed summary judgment record”
and a later state court conviction showed that the
plaintiff “made two threats of violence to law enforcement officers,” both of which constituted felonies under state law).
Here, Defendants argue that the video evidence
and the officers’ deposition testimony clearly show
that the officers “had reason to believe Mr. Kong committed multiple felonies before he exited the vehicle.”
(Defs.’ Br. at 23-24.) Specifically, Defendants argue
that Mr. Kong committed “felony terroristic threats”
(Minn. Stat. § 609.713) and “first degree felony assault” (Minn. Stat. § 609.221, subd. 2) shortly before
his death. (Id. at 23.)
With respect to “felony terroristic threats,” Defendants argue that the video shows Mr. Kong “violently lung[ing], bang[ing], and slic[ing] his knife
against the thin glass window that separated [him]
from the officers in a public parking lot with many
people nearby,” which purportedly communicated a
threat to the officers and others. (Id.)

58a
With respect to “first degree felony assault,” and as
described above, Defendants argue that the video
shows Mr. Kong “reach[ing] across the passenger seat
and violently lung[ing] his long knife through the
open window at [Officer] Jacobs.” (Id.) Moreover,
three of the four officers specifically mentioned this
moment in their depositions, and emphasized its importance in their ultimate decision to use deadly force.
(See Mott Dep. at 79 (stating that Mr. Kong “slashed
out and tried to stab Officer Jacobs,” and that, “if he’s
willing to do that toward a police officer it’s reasonable
to say he’s willing to do that to someone else”); Tonne
Dep. at 26 (claiming that deadly force would have
been justified even if Mr. Kong was not running toward people because “he was already basically assaulting us”); Yakovlev Dep. at 36 (asserting that he
did not need to give a command to shoot because “after
[Mr. Kong] swiped at my officer with the knife I felt
that he was a threat of deadly force to our officers and
people around”).
By contrast, Plaintiff argues that, for one, the officers had no reason to believe Mr. Kong was threatening anyone from within the confines of his car. (See
Pl.’s Br. at 3-5.) Rather, Plaintiff argues, the video evidence simply shows Mr. Kong “waving his arms and
moving his body in a continuous and erratic fashion,”
albeit while holding a knife. (Id. at 9.)
Moreover, with respect to the alleged assault on
Officer Jacobs, Plaintiff argues that Mr. Kong “did not
in fact in attempt to strike [Officer] Jacobs,” and that,
at worst, Mr. Kong “react[ed] defensively to the taser
cartridge and/or wire at the moment the taser [was]
deployed for a second time.” (Id. at 10.) Further, Plaintiff contends that, after the alleged assault, the video

59a
shows Defendants “carry[ing] on as they had been previously.” (Id. at 11; see also Blaricom Ex. Rep. ¶ 23(g)
(opining that “reasonable officers responding to and
evaluating this incident would not have concluded
that [Mr. Kong] was threatening them,” in part because Mr. Kong’s reaction to Officer Jacobs’s taser
“was no different than the behavior he had previously
been displaying”).) Plaintiff also notes that, in their
post-shooting BCA interviews, none of the four present officers claimed that Mr. Kong assaulted Officer
Jacobs prior to their use of deadly force. (Id. at 10-11.)
The Court finds that, just as in Wallace, a material
dispute of fact exists as to whether Mr. Kong committed either felony terroristic threats or first-degree felony assault in the moments before his death. See Wallace, 843 F.3d at 768. As relevant here, a person commits felony terroristic threats when they “threaten,
directly or indirectly, to commit any crime of violence
with purpose to terrorize another . . . or in a reckless
disregard of the risk of causing such terror.” Minn.
Stat. § 609.713. “A communication constitutes a
threat if, in context, it would have a reasonable tendency to create apprehension that its originator will
act according to its tenor.” State v. Smith, 825 N.W.2d
131, 135 (Minn. Ct. App. 2012). In Smith, for instance,
the court found that a person committed felony terroristic threats when, in the midst of a heated argument,
the person waved a knife at somebody four feet away
from them and demanded money. Id.
Viewing the record in the light most favorable to
Plaintiff, a reasonable juror could find that Mr. Kong
did not commit felony terroristic threats. Record evidence suggests that, “in context,” Mr. Kong’s erratic
knife waving within the confines of his car did not
evince an intent to “act according to its tenor.” Smith,

60a
825 N.W.2d at 135. As the 9-1-1 caller (calmly) informed the police, Mr. Kong had been waving the
knife around in his car, uninterrupted, for at least 30
minutes before the officers arrived. See supra at 4-5
(noting that Officers Jacob and Mott received this information). And, even after the officers arrived, Mr.
Kong at no point attempted to communicate to, much
less target, anyone outside the car.
Next, a person commits first-degree felony assault
by “using or attempting to use deadly force” against a
police officer performing their duties. Minn. Stat. §
609.221, subd. 2. “Deadly force” means acting with
“the purpose of causing, or which the actor should reasonably know creates a substantial risk of causing,
death or great bodily harm.” Id. § 609.066, subd. 1. An
officer has probable cause to believe someone assaulted them if, for instance, the person stands near
the officer and makes “a quick movement toward [the
officer] with knives in hand while uttering words to
the effect that he wished to engage [the officer] in combat [i.e., “bring it on, f*****”].” State v. Trei, 624
N.W.2d 595, 597-98 (Minn. Ct. App. 2001).
Viewing the record in the light most favorable to
Plaintiff, a jury could find that, unlike the defendant
in Trei, Mr. Kong did not knowingly “attempt to use
deadly force” against Officer Jacobs. Minn. Stat. §
609.221, subd. 2. The video certainly shows Mr. Kong
swinging his knife closer to Officer Jacobs, although
not clearly through the broken car window. (See, e.g.,
Mott Body Camera at 8:03-8:07.) As such, it is not
clear whether Mr. Kong “violently lunged his long
knife through the open window at [Officer] Jacobs”
with any kind of intent to harm, as Defendants claim
(Defs.’ Br. at 23), or whether Mr. Kong was simply
continuing the erratic, unfocused motions he had been

61a
making since the start of the encounter. (See, e.g.,
Tonne Body Camera at 5:36-5:39; Yakovlev Body
Camera at 3:10-3:12.) Indeed, in the video, one cannot
see the officers reacting to this particular lunge in real
time. (Id.) Moreover, as a general matter, “merely
brandishing or pointing knives is a less significant ‘attempt’ to use force than would be the case with firearms.” State v. Evans, 2005 WL 353988, at *6 (Minn.
Ct. App. 2005).
This dispute over the video evidence is exacerbated
by the fact that, just as in Wallace, and contrary to the
officers’ depositions, in the BCA interviews taken immediately after the shooting none of the four officers
mentioned this moment, much less described it as essential to their decision to shoot Mr. Kong. See Wallace, 843 F.3d at 768; see also Henderson v. City of
Woodbury, --- F.3d ---, 2018 WL 6185947, at *5 (8th
Cir. Nov. 28, 2018) (holding, in a deadly force case,
that a material dispute of fact exists when officers’
“uniform deposition testimony” is contradicted by
even a single officer’s “more or less contemporaneous
testimony”).
For these reasons, a material dispute of fact exists
as to whether Mr. Kong committed a violent felony in
the minutes before his death.
b. Whether Mr. Kong Posed an
Imminent Threat of Death or
Grave Bodily Harm to the Surrounding Public When He
Fled His Vehicle Holding a
Knife
The next, and more important, reasonableness factor for the Court to consider is whether, at the time of

62a
his death, Mr. Kong “pose[d] a significant and immediate threat of serious injury or death” to the surrounding public. Capps, 780 F.3d at 886. In surveying
the (admittedly limited) Eighth Circuit case law involving the use of deadly force against a knife-wielding individual, the salient inquiry for this factor appears to be whether the decedent was advancing toward the officers or nearby bystanders at the time of
the shooting. Compare, e.g., Estate of Morgan v. Cook,
686 F.3d 494, 497 (8th Cir. 2012) (officer reasonably
used deadly force where knife-wielding plaintiff,
standing only twelve feet from the officer, “stood up
and moved toward” the officer) and Hassan v. City of
Minneapolis, 489 F.3d 914, 919 (8th Cir. 2007) (officer
reasonably used deadly force where plaintiff “aggressively brandished a machete and a tire iron while approaching officers in a threatening manner,” and
“moved toward” civilians on the public street “more
than once”) with Ludwig v. Anderson, 54 F.3d 465,
469, 473-74 (8th Cir. 1995) (officer potentially acted
unreasonably when using deadly force against a knifewielding plaintiff running away from officers, where
the nearest bystanders were “across the street” and at
least 150 feet away); see also City of San Francisco v.
Sheehan, 135 S. Ct. 1765, 1775 (2015) (noting, in passing, that officers were justified in using deadly force
against a knife-wielding individual who “kept coming
at the officers until she was only a few feet away from
a cornered [defendant officer]”). Moreover, in considering whether a fleeing person posed a deadly threat
to the surrounding public, a reasonable officer is expected to consider “both the person’s present and prior
conduct,” based on the information available to them.
Wallace, 843 F.3d at 768.

63a
Here, Defendants argue that, at the time of his
death, Mr. Kong “clearly posed an immediate threat
to the physical safety of the officers and bystanders at
the scene,” because (a) Mr. Kong “aggressively brandished a long knife in a public parking lot,” (b) Mr.
Kong “refused numerous orders to drop his knife even
after he was tased,” (c) Mr. Kong “used the long knife
in a threatening manner by violently lunging and
swinging it out the open passenger window at [Officer]
Jacobs,” (d) “bystanders were in the vicinity,” including “in the parking lot, inside and outside the restaurant, on the Frontage Road, and on Highway 13,” and
(e) Mr. Kong was “sprinting” towards civilians, and
Ms. Unterschuetz in particular, when he exited his vehicle. (Defs.’ Br. at 27-28.)
By contrast, Plaintiff argues that, far from posing
a deadly threat to the officers or the public, in the
minutes leading up to his death, Mr. Kong “displayed
many of the signs of a mental health crisis described
in” the City’s CIT policy, did not “attempt[] or
threaten[] to commit a crime of violence,” and appeared “visibly frightened.” (Pl.’s Br. at 28.) Moreover,
when he fled his vehicle, Plaintiff contends that Mr.
Kong did “not run toward any bystanders” and did
“not attempt to turn to face [the] officers.” (Id. at 29.)
Indeed, “[d]uring the entire encounter,” Plaintiff emphasizes, Mr. Kong “never exhibited an intent to harm
any bystanders or officers.” (Id.)
Viewing the facts in the light most favorable to
Plaintiff, as the Court must at this stage, the Court
finds that a genuine dispute of material fact exists as
to whether Mr. Kong “pose[d] a significant and immediate threat of serious injury or death” to the surrounding public at the moment Defendants opened

64a
fire. Capps, 780 F.3d at 886. Most importantly, because the video evidence does not “blatantly contradict” Plaintiff’s narrative that Mr. Kong was running
away from pedestrians and the officers at the time of
his death, the Court must credit that version of
events. Scott, 550 U.S. at 380; Thompson, 894 F.3d at
998-99; see also supra at 15-16 (describing the relevant video evidence). And to the extent Mr. Kong was
approaching moving vehicles on Frontage Road or
Highway 13 with a knife in his hand, such as Ms. Untersheutz’s vehicle, the Court finds that a reasonable
juror might not credit Defendants’ fear that Mr. Kong
was poised to “either carjack a car or stab somebody,”
absent the use of deadly force. (Yakovlev BCA Interview at 20; see also Hr’g Tr. at 12-13.) This is particularly so in light of Mr. Kong’s behavior during the
seven minutes prior to his death, which a reasonable
juror might interpret as scared and confused, rather
than violent and confrontational. (Accord Sandoval
Dep. at 14.) As the Eighth Circuit noted in Wallace,
there is a difference between shooting someone merely
“fleeing arrest” versus shooting someone “engaging in
a ‘hostile and intense’ physical struggle.” Wallace, 843
F.3d at 659 (quoting Parks v. Pomeroy, 387 F.3d 949,
957-58 (8th Cir. 2004)). Moreover, as the Court detailed above, there is a factual dispute as to whether
Mr. Kong assaulted or threatened the police officers
prior to his flight, such that the officers would have
thought Mr. Kong reasonably likely to “try to stab”
someone in his vicinity. (See Mott Dep. at 79.)
The limited Eighth Circuit case law concerning the
use of deadly force against knife-wielding persons further buttresses this conclusion. Indeed, in the case
with the most analogous facts to this one, Ludwig v.
Anderson, the Eighth Circuit reversed a district court

65a
for granting summary judgment to the defendant officers. There, police officers were dispatched to handle
an “emotionally disturbed person” (Ludwig) who was
camped behind a Wendy’s restaurant and concerning
civilians in the area. 54 F.3d at 467. Shortly after the
officers arrived, the officers attempted to arrest Ludwig for engaging in threatening behavior, which
prompted Ludwig to pull out a knife and flee from the
officers. Id. at 468. The officers chased Ludwig to a
nearby street and formed a semicircle around him, all
while pointing their guns at him and ordering him to
drop the knife. Id. Ludwig did not obey the officers,
and continued to “switch[] the knife from hand to
hand,” “as if [he] might throw the knife.” Id. During
this time, Ludwig “did not lunge at any police officer
or run towards any police officer,” although one officer
later stated otherwise at his deposition. Id. at 469.
Then, despite knowing that mace might further perturb an “emotionally disturbed person,” an officer
maced Ludwig, which caused Ludwig to “immediately
turn[] and run towards [the street] where [the officer]
could see pedestrians.” Id. The officers then shot and
killed Ludwig. Id. Although Ludwig was running
away from the officers, and the nearest visible bystander was “across the street approximately 150 feet
from Ludwig,” the officers believed deadly force was
needed to “stop Ludwig from possibly attempting to
get across the street, which he would then be in contact with other citizens that were in the project, or the
apartment building, in that area and he could do
harm.” Id. The present officers “uniformly contend[ed]
that deadly force was justified.” Id. at 473.
On these facts, the District Court found that “it
was objectively reasonable for [the officers] to believe
that Ludwig posed a serious and immediate danger of

66a
physical harm to bystanders in the vicinity.” Id. at
472. The Eighth Circuit, however, reversed, finding
that “material questions of fact remain as to whether
Ludwig’s actions at the time of the shooting, even if
dangerous, threatening, or aggressive, ‘posed a threat
of serious physical harm.’” Id. at 473 (quoting Garner,
471 U.S. at 11-12)). In particular, the Eighth Circuit
noted that Ludwig was emotionally disturbed, and
that the Police Department had a policy which emphasized using lesser force on such persons when they
had not committed a dangerous felony. Id. at 472.
Moreover, the Eighth Circuit added, there were fact
questions over how much of a threat Ludwig posed to
bystanders in the area, based on both Ludwig’s behavior toward the police and the “number and location” of
bystanders. Id. at 473-74. In sum, the Eighth Circuit
ruled that a reasonable juror could find that the officers “fatally shot Ludwig after St. Paul police suspected him initially of being homeless and emotionally
disturbed, and, later, of misdemeanor criminal activity which arguably placed no one in immediate harm.”
Id. at 474.
Likewise here, a reasonable juror could find that,
even with a knife, Mr. Kong did not pose a “threat of
serious physical harm” to either the pedestrians or officers he was running away from, or the moving vehicles he was running in the general direction of. Garner, 471 U.S. at 11-12. In making this determination,
a juror might take into account everything Defendants had observed in their seven-minute interaction
with Mr. Kong, including the fact that Mr. Kong arguably appeared to be enduring a “mental health crisis,”
as defined by the City’s CIT policy, and accordingly
could not fully comprehend the situation at hand. (See

67a
CIT Policy at 1-2 (detailing the “possible signs of mental health issues or crises,” several of which Mr. Kong
displayed here).) 15 Indeed, like the St. Paul Police Department policy at issue in Ludwig, the Burnsville
CIT policy cautions officers to use alternatives to
deadly force when dealing with emotionally disturbed
persons, if possible. Compare supra at 6 with Ludwig,
54 F.3d at 472. “Although these police department
guidelines do not create a constitutional right, they
are relevant to the analysis of constitutionally excessive force.” Ludwig, 54 F.3d at 472 (cleaned up). This
is not to say that Mr. Kong’s emotionally disturbed
state would ipse dixit render Defendants’ decision to
shoot him unreasonable. See Frederick, 873 F.3d at
647 (holding, in the context of using deadly force on a
mentally ill person, that “the relevant inquiry is
whether [the decedent] posed a threat, not what
prompted the threatening conduct”); accord CIT Policy at 2 (“Nothing in this policy shall be construed to
limit an officer’s authority to use reasonable force
when interacting with a person in crisis.”). Rather,
At their depositions, the officers uniformly contended that, at
the time, they believed Mr. Kong was on high on methamphetamines, rather than in the midst of a mental health crisis. (See
supra at 8-9; accord Tonne Dep. at 11, 30-31; Yakovlev Dep. at
22-23, 31-32.) However, when it comes to the CIT policy, this may
be a distinction without a difference. As Defendants’ own medical
expert points out, “acute psychosis due to mental illness and
methamphetamine intoxication” “are clinically indistinguishable.” (Dr. Hail Ex. Rep. at 13; accord Wicklgren Ex. Rep. ¶ 23
(noting that police should respond to “psychotic behaviors”
caused by “mental health” issues and/or “drug ingestion” in “the
same” manner).) Moreover, an experienced police dispatcher who
heard the facts from the 9-1-1 call assumed that this might be a
mental health situation. (See Kennedy Dep. at 7, 11-12.) Accordingly, a reasonable juror might find the CIT policy’s guidance relevant here, as it was in Ludwig.
15

68a
Mr. Kong’s mental condition (and accordant inability
to understand the situation at hand) is simply one fact
among many that may call into question the reasonableness of Defendants’ belief that Mr. Kong posed a
serious physical threat to bystanders when he fled
from his vehicle, such that deadly force (as opposed to
a lesser form of force) was necessary. See Ludwig, 54
F.3d at 472 (noting that “Ludwig’s status as an emotionally disturbed person” did not “entitle[] him to any
additional, clearly established constitutional rights,”
but, rather, would be “relevant to the trial court’s determination of objective reasonableness in the substantive portion of this trial”).
Other Eighth Circuit cases involving the use of
deadly force against knife-wielding persons are readily distinguishable. As the Court noted above, the
common thread among cases where the court has
ruled for the police at summary judgment is that the
decedent moved toward officers or pedestrians at the
time of death, usually in a threatening manner. Consider Hassan v. City of Minneapolis, the case arguably
next closest to this one, after Ludwig. There, the police shot and killed a mentally ill man brandishing a
machete and tire iron following a mid-afternoon 11minute confrontation in “the middle of [a residential]
street” and then in a “shopping mall parking lot.” 489
F.3d at 917. During this confrontation, the man repeatedly “ran at” and slashed at officers and “moved
toward citizens more than once.” Id. at 917-19. The
man also made comments like “that ain’t enough,” after the officers hit him with a taser. Id. at 917. The
officers finally shot the man, following five failed taser
hits, when he “moved toward the officers” while “making slashing motions with his machete” and “hit[ting]
the trunk of the squad car [which the officers were

69a
standing next to] with his machete.” Id. at 918. The
officers in that case had also undergone CIT training.
Id. at 917-18. On these facts, both the District Court
and the Eighth Circuit found that the officers’ use of
deadly force was not unreasonable because, even if the
man was mentally ill, he “posed a significant and immediate threat of death or serious physical injury to
the officers and to the public.” Id. at 919.
Schneider v. City of Minneapolis, No. 03-cv-3510
(JMR/FLN), 2006 WL 1851128 (D. Minn. June 30,
2006), is also instructive. There, the police entered an
apartment on a domestic disturbance call and encountered a “highly disturbed” woman “yell[ing] something
about Satan” and charging toward them with a long
knife. Id. at *1. The officers quickly exited the apartment and held the door shut, as the woman “repeatedly attempted to open the door.” Id. After the woman
stopped pushing on the door, the officers re-entered
the apartment. Id. at *2. Once inside, the officers
again encountered the woman in her bedroom, where
she was holding a knife and calling the police “Nazis
and pigs.” Id. at *3. The woman ignored the officers’
commands that she drop the knife, and instead “advanced to the bedroom doorway,” just feet from the officers. Id. Two officers simultaneously shot and killed
her. Id. On these facts, the Court granted summary
judgment to the defendant officers, finding that, even
though the woman was mentally ill, it was “objectively
reasonable” to use deadly force on “an epithet-screaming woman advancing on them with a knife.” Id. at *67.
Plaintiff’s behavior in this case was certainly
frightening and unpredictable, like the decedents in
Hassan and Schneider. However, when one views the
video evidence in the light most favorable to Plaintiff,

70a
Mr. Kong posed a far less imminent threat of “death
or serious bodily injury” to bystanders (or the officers)
when Defendants opened fire on him. Not only was
Mr. Kong moving away from the officers and pedestrians at the time of his death, but his (arguably) confused and frantic behavior during the seven-minute
lead-up to the shooting falls far closer to the emotionally distraught behavior in Ludwig than the menacing
behavior displayed in Hassan and Schneider.
For these reasons, a genuine dispute of material
fact also exists as to whether Mr. Kong “pose[d] a significant and immediate threat of serious injury or
death” to the surrounding public at the time of the
shooting. Capps, 780 F.3d at 886. 16
b. Whether
Defendants
Clearly Established Law

Violated

1. The Law
Of course, even if material disputes of fact preclude
the Court from deeming Defendants’ use of deadly
Although the parties discussed other cases involving mentally
ill knife-wielding plaintiffs in their briefs, those cases are not
helpful to determining whether the officers’ use of deadly force
was objectively reasonable under the Fourth Amendment. Kisela
v. Hughes, 138 S. Ct. 1148 (2018) discussed only the “clearly established” prong of the qualified immunity analysis, and hence
provides no guidance on the reasonableness of an officer’s use of
deadly force. Additionally, Frederick v. Motsinger, cited repeatedly by Defendants, involved the reasonableness of using a taser
on a mentally disturbed person wielding a knife in public, which
is not at issue here. 873 F.3d at 646. Indeed, in Frederick, the
plaintiff conceded that the officers were justified in shooting and
killing the decedent (after the taser proved ineffective) because
the undisputed video evidence showed the decedent “charg[ing]
toward” the police officer “with her knife in a stabbing position.”
Id. at 645. Suffice it to say, that was not the case here.
16

71a
force objectively reasonable as a matter of law, the
Court must still find in Defendants’ favor if the constitutional right Defendants allegedly violated was
not “clearly established” as of March 17, 2016. Neal,
895 F.3d at 582. This requirement insures that law
enforcement officers have “fair warning” that their
treatment of a person may be unconstitutional at the
time of the incident. Id. (citing Hope v. Pelzer, 536 U.S.
730, 741 (2002)). In recent years, moreover, the Supreme Court has emphasized, repeatedly, that courts
must not “define clearly established law at a high level
of generality.” Kisela, 138 S. Ct. at 1152; White v.
Pauly, 137 S. Ct. 548, 552 (2017); Sheehan, 135 S. Ct.
at 1776. In other words, because “the general rules
[surrounding the use of deadly force] set forth in Garner and Graham do not by themselves create clearly
established law outside an obvious case,” courts
should look for “existing precedent” that “squarely
governs the specific facts at issue.” Kisela, 138 S. Ct.
at 1153 (cleaned up). However, “it is not necessary . .
. that the very action in question has previously been
held unlawful,” so long as precedent evinces “a fair
and clear warning of what the Constitution requires.”
Thompson, 894 F.3d at 999 (cleaned up).
2. Analysis
The Court understands that this is a demanding
standard. 17 However, viewing the facts in the light

Indeed, the standard is so demanding that, in recent years,
jurists and academics from across the ideological spectrum have
called the historical and legal underpinnings of this “clearly established” inquiry into question. See, e.g., Ziglar v. Abbasi, 137
S. Ct. 1843, 1871-72 (2017) (Thomas, J., concurring); Zadeh v.
Robinson, 902 F.3d 483, 498-500 (5th Cir. 2018) (Willett, J., concurring); William Baude, Is Qualified Immunity Unlawful?, 106
17

72a
most favorable to Plaintiff, Eighth Circuit law provided Defendants “a fair and clear warning of what
the Constitution require[d]” when confronted with
this situation. Thompson, 894 F.3d at 999. The
“squarely governing” precedent is Ludwig v. Anderson, which the Court described at some length above.
See supra at 32-34. That case, which has been cited
over 475 times since 1995, established that, without
more, it is not constitutionally reasonable to use
deadly force against a fleeing, emotionally disturbed
person armed with a knife, if that person had not previously attacked anybody, if that person is moving
away from the officers and other nearby pedestrians,
and if that person does not pose an imminent threat
of death or grave bodily harm to others. If anything,
this case may have been clearer cut than Ludwig, in
that Ludwig was running toward a nearby “apartment building” of bystanders, while holding a knife,
whereas Mr. Kong was only running toward moving
vehicles on a busy highway. See Ludwig, 54 F.3d at
469. Suffice it to say, a knife poses a far greater threat
to a pedestrian than a driver. Cf. Reyes v. Bridgewater, 362 Fed. App’x 403, 407 (5th Cir. 2010) (denying qualified immunity and noting that “[t]he immediacy of the risk posed by a man armed with a kitchen
knife at his side is far less than that of a man armed
with a gun” because “a gun can kill instantaneously at
a distance” whereas a man with a knife “would have
had to first either advance toward [another] or at least
raise the knife before he could inflict any harm”).

Cal. L. Rev. 45 (2018); Joanna C. Schwartz, The Case Against
Qualified Immunity, 93 Notre Dame L. Rev. 1797 (2018).

73a
Although Defendants point out various factual differences between this case and Ludwig, these differences are either irrelevant or would require the Court
to view the facts in the light most favorable to Defendant. (See Defs.’ Reply Br. at 2 (stating that, unlike
Ludwig, Mr. Kong “sprinted toward people with a
knife,” “repeatedly swung . .. his knife against the windows toward the Officers,” and “lunged his knife out
the broken passenger window toward [Officer] Jacobs”).) As the Court explained above, a reasonable juror could find that Mr. Kong did not assault or
threaten the officers before his flight, and that Mr.
Kong did not pose an imminent threat of death or
grave bodily harm to the surrounding public when he
did flee. See Tolan, 572 U.S. at 657 (“[C]ourts must
take care not to define a case’s ‘context’ in a manner
that imports genuinely disputed factual propositions.”).
All told, because the factual differences between
Ludwig and this case do not “leap from the page,” the
Court declines to grant Defendants qualified immunity at this juncture. Cf. Kisela, 138 S. Ct. at 1154 (finding that law was not clearly established when the “differences between” the purportedly governing precedent “and the case before us leap from the page”) (citing Sheehan, 135 S. Ct. at 1776).
****
The Court acknowledges that Mr. Kong did not respond to Defendants’ repeated commands to drop his
knife, and that he fled his car with a weapon in hand.
See Wealot, 865 F.3d at 1125 (noting that whether a
person “was actively resisting arrest or attempting to
evade arrest by flight” is relevant to the objective reasonableness analysis). The Court also acknowledges

74a
that Defendants were “forced to make [a] split-second
judgment” in “circumstances that [were] tense, uncertain, and rapidly evolving.” Church, 898 F.3d at 833.
However, given both the Eighth Circuit precedent and
the significant disputes of material fact detailed
above, the Court cannot resolve this Fourth Amendment claim as a matter of law. The facts surrounding
Mr. Kong’s death are in dispute, as is evident from the
video evidence. It should be for a jury to decide
whether the officers acted reasonably under the circumstances.
For these reasons, the Court denies Defendants’
summary judgment motion with respect to Plaintiff’s
Fourth Amendment claim.
3. Deliberate Indifference to Mr. Kong’s
Medical Needs Under the Fourteenth
Amendment
1. The Law
The Due Process Clause of the Fourteenth Amendment prohibits state and local government officials
from depriving “any person” of “life, liberty, or property, without due process of law.” U.S. Const. amend.
XIV. This Clause “generally confer[s] no affirmative
right to governmental aid.” DeShaney v. Winnebago
Cty. Dep’t Soc. Servs., 489 U.S. 189, 196 (1989). However, “when the State takes a person into its custody
and holds him there against his will,” the Clause “impos[es] . . . a corresponding duty to assume some responsibility for his safety and general well-being.” Id.
at 199-200; accord Estelle v. Gamble, 429 U.S. 97
(1976) (holding, under the Eighth Amendment, that
the State must provide prisoners with adequate medical care). This is so because, “when the State by the

75a
affirmative exercise of its power so restrains an individual’s liberty that it renders him unable to care for
himself, and at the same time fails to provide for his
basic human needs—e.g., food, clothing, shelter, medical care, and reasonable safety—it transgresses the
substantive limits on state action set by the Eighth
Amendment and the Due Process Clause.” DeShaney,
489 U.S. at 200.
In line with these general principles, the Eighth
Circuit has held that an “arrestee,” in the police’s custody, “has a right to be free from deliberately indifferent denials of emergency medical care.” Bailey v. Feltmann, 810 F.3d 589, 593 (8th Cir. 2016). 18 “‘Custody’
in this context must be something more than an individual’s reasonable belief that he is not free to leave,
as is the case under the Fourth Amendment.” Gladden
v. Richbourg, 759 F.3d 960, 965 (8th Cir. 2014). “Rather, custody is effected for purposes of the Fourteenth Amendment only when the state ‘so restrains
an individual’s liberty that it renders him unable to
care for himself.’” Id. (quoting DeShaney, 489 U.S. at
200)). This is a “high standard.” Id.; accord Dodd v.
Jones, 623 F.3d 563, 567 (8th Cir. 2010).
Admittedly, in this circuit, “it is an open question whether the
standard of the Fourth or the Fourteenth Amendment applies to
medical care claims of arrestees.” Ryan v. Armstrong, 850 F.3d
419, 425 n.2 (8th Cir. 2017) (emphasis added). However, because
Plaintiff did not invoke the Fourth Amendment in their briefing
or complaint, the Court proceeds on the understanding that the
Fourteenth Amendment, and its accordant “custody” standard,
governs this claim. See Carpenter v. Gage, 686 F.3d 644, 650 (8th
Cir. 2012) (“Carpenter cites authorities applying due process
analysis, and he does not invoke the Fourth Amendment, so we
consider his argument on that basis.”); see also Bailey, 810 F.3d
at 593 (declining to resolve this question even when the plaintiff
did invoke the Fourth Amendment).
18

76a
If a person is in the police’s custody, that person
may state a Due Process claim if he “demonstrate[s]
that he suffered an objectively serious medical need,
and that the [officers] had actual knowledges of those
needs but deliberately disregarded them.” Carpenter,
686 F.3d at 650. “This showing requires a mental state
akin to criminal recklessness.” Barton v. Taber, 820
F.3d 958, 965 (8th Cir. 2016). For instance, the Eighth
Circuit recently found that two officers were deliberately indifferent to a seriously ill pretrial detainee’s
medical needs “when they allowed him to scream,
howl, and bang against his cell door for eight hours
without attempting to talk to him or seek medical intervention.” Ryan, 850 F.3d at 426.
2. Analysis
Here, Plaintiff argues that Defendants took Mr.
Kong into custody when Officers Jacobs and Tonne
blocked his car in. (Pl.’s Br. at 32-34 (citing U.S. v.
Turley, 161 F.3d 513, 514-15 (8th Cir. 1998).) 19 Then,
Plaintiff continues, Defendants deliberately ignored
Mr. Kong’s obvious need for medical attention when
they broke his car window and tasered him, instead of
waiting for the medics that Officer Jacobs had summoned (and who arrived approximately six minutes
after the shooting, along with additional police officers). (Id. at 34-37.) “Such actions,” Plaintiff contends,
“caused Mr. Kong to exit his vehicle, where he was no
longer amenable to medical evaluation, observation,
and ultimately treatment.” (Id. at 36.)

In their briefs, both parties use the phrase “seized” rather than
“taken into custody.” However, because this claim is being analyzed under the Fourteenth Amendment, the Court will use the
latter phrase.
19

77a
Defendants, by contrast, argue that Mr. Kong was
not taken into custody until his death. (Defs.’ Br. at
37-39) And even if Mr. Kong was in custody during the
seven-minute encounter, Defendants assert, there is
no case law, much less “clearly established” case law,
that would have put officers on notice that they had a
constitutional duty to provide medical care to someone
in Mr. Kong’s position. (Id. at 39.)
The Court finds Defendants’ actions in the lead-up
to Mr. Kong’s death troubling, to say the least. However, the Court declines to consider the merits of
Plaintiff’s Due Process claim because, even viewing
the facts in the light most favorable to Plaintiff, qualified immunity plainly protects the officers from suit.
See Pearson, 555 U.S. at 237 (encouraging courts to
decide qualified immunity defenses on the “clearly established “prong” when “it is plain that a constitutional right is not clearly established but far from obvious whether in fact there is such a right”). The Court
cannot find precedent, from this Circuit or any other,
that would have informed the officers that Mr. Kong
was in their custody for Fourteenth Amendment purposes, such that they had an affirmative duty to provide him medical care. See Kisela, 138 S. Ct. at 1153
(instructing courts to look for “existing precedent”
that “squarely governs the specific facts at issue”). Indeed, in its research, the Court cannot find any medical indifference case with facts similar to this one.
In every case involving deliberate indifference to
an arrestee’s medical needs that the Court has found
(or which Plaintiff has cited in their brief), the plaintiff was physically placed under arrest and/or held in
a jail or squad car before the deliberate indifference
claim arose. See, e.g., Barton, 820 F.3d at 964-65; Bailey, 810 F.3d at 593-94; Carpenter, 686 F.3d at 650-51;

78a
accord DeShaney, 489 U.S. at 200 (suggesting that the
right to medical care would only arise during “incarceration, institutionalization, or other similar restraint on personal liberty”). Here, although Officer
Jacobs technically placed Mr. Kong under arrest early
on in the encounter, see supra at 9, Mr. Kong remained in his car until seconds before his death, and
never submitted to Defendants’ physical authority.
Therefore, even if Defendants could see that Mr. Kong
was in need of emergency medical assistance, the law
did not clearly state that the officers had a duty to provide him that assistance until after he was “restrained,” and “unable to care for himself.” DeShaney,
489 U.S. at 200; cf. Carpenter, 686 F.3d at 651 (“Before
the deputies could consider responding to Carpenter’s
medical needs, they had to subdue him and secure the
premises.”).
This situation is somewhat analogous to Dodd v.
Jones. There, police officers responded to a car accident and found an injured driver (who had been driving drunk) lying in the middle of the road. See 623
F.3d at 565. The officers did not move the driver for
fear of further injuring him. Id. Instead, the officers
began investigating the accident scene. Id. Six
minutes later, though, another drunk driver came
along and ran over the injured driver. Id. at 566. After
this happened, the officers arrested both drivers for
drunk driving. Id. at 565-66. The injured driver
brought a Due Process medical indifference claim
against the officers, arguing that he was in their custody from the moment the officers arrived and that, by
not attempting to block traffic or set road flares, the
officers were deliberately indifferent to his medical
needs. Id. However, the Eighth Circuit found it
“doubt[ful]” that the officers “took [the driver] into

79a
custody and held him against his will so as to trigger
the corresponding duty described in DeShaney.” Id. at
567. “The absence of a clearly established duty for the
officers to protect [the injured driver] under these circumstances,” the Eighth Circuit concluded, “is sufficient grounds to affirm the district court’s grant of
summary judgment in a qualified immunity case.” Id.
Defendants certainly exercised more force to hold
Mr. Kong “against his will” than the officers in Dodd,
and arguably should have paid more careful attention
to Mr. Kong’s mental condition while they had him
surrounded. Id. However, because the officers never
actually took Mr. Kong into custody during their
seven-minute encounter with him, the same “absence
of a clearly established duty” applies here. Id.
The only contrary authorities Plaintiff cites for the
proposition that Defendants should have known that
Mr. Kong was in their custody for Fourteenth Amendment purposes are Fourth Amendment “seizure”
cases. See, e.g., Turley, 161 F.3d at 515 (holding that
“blocking” a person’s “truck with the squad car resulted in a Fourth Amendment seizure”). However, as
the Court noted above, the Eighth Circuit has made
clear that “custody” under the Fourteenth Amendment is a much higher bar than a “seizure” under the
Fourth Amendment, for the policy reasons set forth in
DeShaney. See Gladden, 759 F.3d at 965. Because this
case law is inapposite, the law did not offer Defendants “a fair and clear warning of what the Constitution require[d]” in this situation. Thompson, 894 F.3d
at 999.
For these reasons, the Court grants Defendants
qualified immunity with respect to Plaintiff’s Fourteenth Amendment claim.

80a
B. Negligence
1. The Law
“The basic elements of a negligence claim are (1) a
duty; (2) a breach of that duty; (3) that the breach of
duty be the proximate cause of plaintiff’s injury; and
(4) that plaintiff did in fact suffer an injury.” Hudson
v. Snyder Body, Inc., 326 N.W.2d 149, 157 (Minn.
1982). However, “[t]he doctrine of official immunity
protects from personal liability a public official
charged with duties that call for the exercise of judgment or discretion unless the official is guilty of a willful or malicious wrong.” Rico v. State, 472 N.W.2d 100,
106-07 (Minn. 1991). Official immunity under Minnesota law is not the same as qualified immunity under
Section 1983. See Elwood v. Rice Cty., 423 N.W.2d
671, 677 (Minn. 1988). Under Minnesota law,
“whether official immunity applies turns on: (1) the
conduct at issue; (2) whether the conduct is discretionary or ministerial . . . ; and (3) if discretionary,
whether the conduct was willful or malicious.” Vassallo ex rel. Brown v. Majeski, 842 N.W.2d 456, 462
(Minn. 2014).
Where it is agreed that the conduct at issue was
discretionary, as is the case here, only the third consideration applies. (See Pl.’s Br. at 42 (conceding that
the Police Department policy in question is discretionary).) “In determining whether an official has committed a malicious wrong,” courts must consider “whether
the official has intentionally committed an act that he
or she had reason to believe is prohibited.” State by
Beaulieu v. City of Mounds View, 518 N.W.2d 567, 571
(Minn. 1994). This is “less of a subjective inquiry into
malice,” and “more of an objective inquiry into the legal reasonableness of an official’s actions.” Id.; accord

81a
Hayek v. City of St. Paul, 488 F.3d 1049, 1056 (8th Cir.
2007). In other words, because “malice” in this context
“does not refer to the question of whether [an] official
was acting with animus,” “an allegation of actual malice is not necessary.” Gleason v. Metro. Transit Operations, 563 N.W.2d 309, 317 & n.3 (Minn. Ct. App.
1997). As such, “[w]hether an officer acted maliciously
is usually a question of fact for the jury.” Kelly v. City
of Minneapolis, 598 N.W.2d 657, 664 n.5 (Minn. 1999);
see, e.g., Anderson v. City of Hopkins, 805 F. Supp. 2d
712, 724-25 (D. Minn. 2011); Mattson v. Becker Cty.,
No. 07-cv-1788 (ADM/RLE), 2008 WL 3582781, at *10
(D. Minn. Aug. 12, 2008); Gleason, 563 N.W.2d at 319;
Soucek v. Banham, 503 N.W.2d 153, 161 (Minn. Ct.
App. 1993); Maras v. City of Brainerd, 502 N.W.2d 69,
78 (Minn. Ct. App. 1993).
If a court determines that an official is not entitled
to official immunity, “vicarious official immunity will
not protect [a municipality that is also named as a defendant].” Brown v. City of Bloomington, 706 N.W.2d
519, 524 (Minn. Ct. App. 2005) (citing Wiederholt v.
City of Minneapolis, 581 N.W.2d 312, 316 (Minn.
1998)).
2. Analysis
Plaintiff’s negligence claim here centers around the
Burnsville Police Department’s CIT Policy. (See supra
at 6 (hereinafter “the Policy”).) Put simply, Plaintiff
contends that (1) Defendants had a duty to adhere to
the Policy, given Mr. Kong’s plainly distressed behavior; (2) Defendants breached that duty by breaking
Mr. Kong’s windows and escalating the situation, in
direct contravention of the “de-escalation” tactics delineated in the Policy; and (3) Defendants’ actions

82a
proximately caused Mr. Kong’s death. (See Pl.’s Br. at
42-43.)
In response, Defendants only raise an official immunity defense. Because both parties agree that the
Policy is discretionary, Defendants primarily contend
that the evidence definitively shows that they did not
“intentionally commit[] an act that [they] had reason
to believe [was] prohibited” by the Policy. City of
Mounds View, 518 N.W.2d at 571. More specifically,
Defendants argue that they did not know Mr. Kong
had any mental health issues at the time of the shooting, and that the Policy accordingly did not apply. (See
Defs.’ Br. at 41.) Defendants also argue that, even if
the Policy did apply, they properly exercised their discretion in an emergency situation, and did not knowingly violate the Policy. (Id. at 41-42; Defs.’ Reply Br.
at 5-6.)
Plaintiff, in turn, contends that, (1) the record
shows that Defendants “believed that Mr. Kong was
experiencing a crisis caused by such drug intoxication,” (2) “[d]espite such knowledge, Defendant[s] disregarded the provisions of the Policy, which clearly
applied to Mr. Kong,” and (3) “[t]he contrast between
the guidance set forth in the Policy and what actually
happened could not be starker, and supports a finding
that Defendants proceeded in the unreasonable manner they did because they willfully disregarded department policy.” (Pl.’s Br. at 42-43.)
Viewing the evidence in the light most favorable to
Plaintiff, the Court finds that material questions of
fact exist as to whether Defendants knowingly, or
“maliciously,” acted in contravention of the Policy.
First, even though the officers uniformly contended at
their depositions that they did not believe Mr. Kong

83a
was experiencing a mental health crisis, a reasonable
juror could infer from the video evidence and the Policy’s plain text (as well as other circumstantial evidence, like Officer Jacobs’s decision to call for a medic
and the dispatcher’s response to that call), that the
Policy applied in this situation. See supra note 15.
Second, a reasonable juror could find that Defendants’ actions contravened the Policy. For example, the
Policy lists ten things officers should do when confronted with someone in a mental health crisis besides
using force, such as “requesting available backup officers and specialized resources,” and “secur[ing] the
scene and clear[ing] the immediate area.” (See CIT
Policy at 2.) A reasonable juror might find that Defendants acted contrary to the Policy by breaking Mr.
Kong’s windows and using a taser on him six minutes
into the encounter, even though Mr. Kong was “contained,” in Officer Jacobs’s words (Jacobs Body Camera at 5:45-5:55), and additional officers were available from neighboring police departments to help clear
the scene of bystanders. See supra at 17 and note 12.
A reasonable juror might also conclude that Defendants’ guiding assumption that “the situation was not
safe so long as Mr. Kong was in his car,” supra note 7
(quoting Mott Dep. at 48-49), ran afoul the Policy’s directive that “passively monitoring the situation may
be the most reasonable response to a mental health
crisis.” (CIT Policy at 3.) This factual dispute is further sharpened by the parties’ expert witnesses.
(Compare Wickelgren Ex. Rep. (opining that Defendants acted in accordance with the Policy and reasonable law enforcement techniques) with Blaricom Ex.
Rep. (opining that Defendants acted in contravention
of the Policy and reasonable law enforcement techniques).)

84a
Third, a reasonable juror could find that Defendants had “reason to believe” that their actions contravened the Policy because they were all familiar with
the Policy at the time of the incident. City of Mounds
View, 518 N.W.2d at 571. Indeed, Officer Mott had received extensive training on the Policy, and was a
member of the Department’s “CIT Team.” See supra
at 6; cf. Maras, 502 N.W.2d at 78 (denying official immunity at summary judgment and noting that an officer’s “intentional” decision to shoot a person who he
deemed a threat, along with the officer’s “aware[ness]
of state and city policy regarding the use of deadly
force,” were “sufficient to let the jury decide whether
his actions constituted a willful or malicious wrong”).
The Eighth Circuit decision, Hayek v. City of St.
Paul, offers a useful comparison to this case. There,
police officers received a call that a mentally disturbed
young man was having a mental breakdown in his
mother’s apartment. See 488 F.3d at 1052. Police officers entered the apartment and found the man,
alone, holding a “Samurai sword in his lap.” Id. at
1053. The officers began talking to the man, telling
him “they were there to help him” and “were his
friends.” Id. After further conversation, the officers
convinced the man to put his weapon down and come
out into the hallway. Id. However, when the officers
attempted to arrest the man, the man resisted and ran
back into the apartment. Id. After the officers unsuccessfully attempted to use a canine to bring the man
down, the man grabbed his sword and began stabbing
an officer. Id. The other officers then shot and killed
the young man. Id.
Plaintiff there brought a negligence claim, and argued that the officers failed to follow their duties un-

85a
der a “Policy on Emotionally Disturbed Persons” similar to the Policy at issue here. Id. at 1056. The Eighth
Circuit rejected this argument at summary judgment,
and found that the officers were entitled to official immunity. “The record clearly shows the officers adequately complied with this policy,” the Eighth Court
held, especially because the officers “attempted to establish a friendly rapport with [the man] and [first]
restrain [him],” before resorting to “deadly force after
[the man] stabbed [an officer] and continued to pursue
[the officer].” Id.
By contrast, the record here does not “clearly show”
that Defendants “adequately complied” with the Policy, up to and including their use of deadly force on the
fleeing Mr. Kong. Id. For instance, in comparison to
the officers’ initially “friendly” approach in Hayek,
there is a fact question here as to whether Defendants
knowingly contravened the Policy’s “de-escalation”
guidance during the few minutes between arriving on
the scene and breaking Mr. Kong’s car windows. Cf.
Hall v. Ramsey Cty., 2016 WL 3659261, at *5 (Minn.
Ct. App. July 11, 2016) (concluding that a detox facility nurse’s “actions were not willful or malicious because they were justified under the detox center’s procedures”).
For these reasons, the Court denies Defendants’
summary judgment motion with respect to Plaintiff’s
negligence claim. 20

Because the Court concludes that the individual officer Defendants are not entitled to official immunity on Plaintiff’s negligence claim, the City of Burnsville is not entitled to vicarious
official immunity either. See Brown, 706 N.W.2d at 524.
20

86a
III.

CONCLUSION

Based on the submissions and the entire file and
proceedings herein, IT IS HEREBY ORDERED that
Defendants’ Motion for Summary Judgment [Doc. No.
43] is GRANTED IN PART AND DENIED IN
PART.
A jury trial is set for Monday April 15, 2019 at
10:00 AM in Courtroom 7B (STP). The Court will issue
a final pretrial order forthwith.
Dated: December 14, 2018
s/Susan Richard Nelson
SUSAN RICHARD NELSON
United States District Judge

